<html>
<title> - RESOLVING THE CONFLICT IN YEMEN: U.S. INTERESTS, RISKS, AND POLICY</title>
<body><pre>[Senate Hearing 115-784]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-784
 
                    RESOLVING THE CONFLICT IN YEMEN: 
                   U.S. INTERESTS, RISKS, AND POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MARCH 9, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                         http://www.govinfo.gov   
                         
                         
                         
                         
                         
                         
               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-291 PDF              WASHINGTON : 2020
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Ben, U.S. Senator From Maryland.....................     2

Joscelyn, Thomas, Senior Fellow, Foundation for Defense of 
  Democracies, Washington, DC....................................     4
    Prepared Statement...........................................     6

Rand, Dafna, Adjunct Senior Research Fellow, National Defense 
  University, Washington, DC.....................................    10
    Prepared Statement...........................................    12

Feierstein, Hon. Gerald M., Director of The Center for Gulf 
  Affairs, Middle East Institute, Washington, DC.................    16
    Prepared Statement...........................................    17

              Additional Material Submitted for the Record

Responses of Dr. Dafna Rand to Questions Submitted by Senator 
  Todd Young.....................................................    44

Responses of Dr. Dafna Rand to Questions Submitted by Senator 
  Jeff Merkley...................................................    46

Responses of Hon. Gerald M. Feierstein to Questions Submitted by 
  Senator Todd Young.............................................    49

Responses of Hon. Gerald M. Feierstein to Questions Submitted by 
  Senator Jeff Merkley...........................................    51

Responses of Thomas Joscelyn to Questions Submitted by Senator 
  Todd Young.....................................................    53

Responses of Thomas Joscelyn to Questions Submitted by Senator 
  Jeff Merkley...................................................    56

                                 (iii)

  


                   RESOLVING THE CONFLICT IN YEMEN: 
                   U.S. INTERESTS, RISKS, AND POLICY

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Young, Paul, Cardin, Menendez, Shaheen, Coons, Murphy, 
Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I am going to go ahead and we will start the 
hearing. In the event everyone shows, I will stop my opening 
comments, as I am sure Senator Cardin will.
    Today's hearing will focus on an important part of the 
Middle East, one that probably does not receive enough 
attention from policymakers, and that is Yemen.
    Yemen has been rocked by political turmoil since 2011, 
suffered through a violent civil war--the briefest opening 
comments ever.
    [Laughter.]
    [Recess.]
    The Chairman. We will move back to the hearing on Yemen. 
Thank you all, again, for your cooperation.
    Today's hearing will focus on an important part of the 
Middle East, one that probably does not receive enough 
attention from policymakers, and that is Yemen.
    If we could, I tell you what, if people who are leaving, if 
you would leave quietly and promptly, that would be great.
    Yemen has been rocked by political turmoil since 2011 and 
suffered through violent civil wars since 2014. Unfortunately, 
the war has split the country in half and left much of Yemen 
ungoverned. Al Qaeda's affiliate in the region, AQAP, has used 
this opportunity to flourish in Yemen.
    The group holds significant territory and has a long 
history of planning terrorist attacks against the United 
States. AQAP has several times tried to take down U.S.-bound 
airliners, and has taken credit for other large attacks. AQAP 
is also a significant terrorist threat to Saudi Arabia and our 
gulf allies.
    Additionally, Iran has exploited this conflict to increase 
its influence in the region. They continue to provide arms to 
the Houthi forces despite a U.N. Security Council resolution 
prohibiting such actions. Houthis have used these weapons to 
attack U.S. ships off the Yemeni coast, and they are launching 
missiles across the border into Saudi Arabia.
    Unfortunately, these concerns are compounded by a tragic 
humanitarian crisis that is currently unfolding. An estimated 
7.3 million people are in need of immediate food aid; 462,000 
children suffer from acute malnutrition. And according to the 
U.N., more than 10,000 civilians have already died in a 2-year 
conflict.
    Both the Saudi-led coalition and the Houthis disagree on 
the fundamentals of a political settlement. However, the battle 
lines are beginning to harden near where Yemen has previously 
divided from 1918 until 1990.
    With the arrival of a new administration and the new 
reality that is emerging on the ground, it is a good time to 
re-examine this conflict. We must ask what more can be done to 
bring about a peaceful resolution and take a closer look at 
what possible outcomes could mean for U.S. interests in the 
region.
    I also look forward to hearing your thoughts on the ways 
that the U.S. could further mitigate the humanitarian crisis 
and combat the AQAP threat.
    I want to thank all of you for being here today and for 
coming, and thank you for sitting through our business hearing.
    And with that, I want to thank again the committee and turn 
to our ranking member.

                 STATEMENT OF HON. BEN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I very much 
appreciate this hearing. I think it is very timely and 
important, considering what is happening today in Yemen.
    And as we pointed out in previous hearings, key leadership 
posts in the State Department are vacant that would be 
responsible for this portfolio, so we do not have a confirmed 
person who could testify today. And I think that is 
unfortunate, and I would just encourage the Trump 
administration to get their team in place as quickly as 
possible.
    And I can assure the chairman that we will work as quickly 
as possible to make sure that we consider those nominations, in 
order for the team to be in place.
    The Chairman. Thank you. That would be great. Thank you.
    Senator Cardin. The Yemen conflict is one that has profound 
serious implications for U.S. national security. The chairman 
has already mentioned our counterterrorism challenges, from the 
Al Qaeda in the Arabian Peninsula, AQAP, to ISIS. It is 
contesting Iran and Iran's influence in Yemen, our relationship 
with Saudi Arabia, the United Arab Emirates, and other gulf 
countries. Those of us who have visited those countries know 
that Yemen will be the number one issue on their agenda.
    Our insistence on international humanitarian and human 
rights laws is desperately needed in Yemen today. Our 
commitment to assisting the world's most vulnerable 
population--before the civil war, it was one of the poorest 
nations in the world. And today, it is in even more dire 
condition.
    But instead of a deliberate national security decision-
making process that identifies U.S. interests, objectives, and 
policy for Yemen, and then implements an appropriately 
resourced strategy, the Trump administration is stumbling into 
a series of escalations: a counterterrorism raid using U.S. 
ground forces, during which we lost one Navy SEAL and many 
civilians, for intelligence of questionable utility; a 
significant uptick in counterterrorism airstrikes over the past 
month; and the possibility of an increased, but as yet 
unspecified support to the Saudi-led coalition, such as the 
President's apparent support for safe zones in Yemen.
    The current approach appears to lack nuance or reflection 
on the consequences of actions before taking them. It may be, 
if some reports are accurate, that the administration considers 
Yemen low-hanging fruit to push back on Iran with relatively 
little cost. But we have seen time and again that unexamined 
assumptions have consequences, especially when thrown into 
civil wars in the Middle East, situations in which terrorist 
groups prosper.
    Yemen is in the middle of an active civil war. We are 
supporting Saudi Arabia and its coalition in seeking to 
reinstate the legitimate Government of Yemen, and we want to 
move forward with a negotiated settlement.
    But all groups of appear dug in and the conflict is only 
escalating as the U.N. panel of experts of Yemen stated in its 
final report to the Security Council last week.
    Mr. Chairman, I am going to quote a couple parts from that 
report, because I think it is extremely relevant to today's 
hearing.
    The panel concluded: After nearly 2 years of conflict in 
Yemen, an outright military victory by one side is no longer a 
realistic possibility in the near term. To date, the parties 
have not demonstrated sustained interest in or commitment to a 
political settlement or peace talks.
    The report goes on to say: The air campaign waged by the 
coalition led by Saudi Arabia, while devastating to Yemeni 
infrastructure and civilians, has failed to dent the political 
will of the Houthi alliance to continue the conflict. Maritime 
attacks in the Red Sea in late 2016 have increased the risk of 
the conflict spreading regionally.
    The report continues: Terrorist groups such as AQAP and an 
ISIS affiliate in Yemen are now actively exploiting the 
changing political environment and governance vacuums to 
recruit new members and stage new attacks, and are laying the 
foundation for terrorist networks that may last for years. The 
U.N. panel of experts concluded that the conflict has seen 
widespread violations of international humanitarian law by all 
parties--all parties--to the conflict, widespread and 
systematic violations of international human rights laws and 
human rights norms, and that all parties have obstructed the 
distribution of humanitarian assistance within Yemen.
    So look at the numbers: 7.3 million people in need of 
immediate food aid, according to the World Food Program; 
462,000 children suffering from severe acute malnutrition, 
according to UNICEF; since March 2015, 20,000 children have 
died from preventable diseases, such as diarrhea and pneumonia; 
14.8 million people lack access to basic health care, according 
to the World Health Organization. The United Nations estimates 
7,500 people have died and 40,000 have been injured since March 
2015.
    Iran is asserting itself in Yemen and transferring weapons 
and skills to the Houthis that could threaten freedom of 
navigation in the Red Sea coast for both military and 
commercial vessels.
    This is totally unacceptable. There is no question that 
Saudis have legitimate defense concerns. A weak, divided Yemen 
susceptible to Iranian influence or violent extremist groups 
like the AQAP is horrible for the Saudis. We understand that.
    The Houthis have launched SCUD missiles into Saudi Arabia. 
The Saudi Government has suffered casualties and has had to 
evacuate towns, schools, and hospitals.
    We should support our partner, the Saudis, and demand 
improvement in the conduct in the way that they do business.
    Bottom line, we need a comprehensive, policy-driven vision 
for resolving the conflict in Yemen that articulates a 
realistic political outcome for the civil war and how we can 
get there, and also addresses counterterrorism in Iran.
    This is the President's responsibility, along with his 
national security Cabinet secretaries and National Security 
Council, in conjunction with this committee and the Congress.
    I look forward to hearing from our witnesses.
    The Chairman. Thank you very much.
    Our first witness is Mr. Thomas Joscelyn, a senior fellow 
from the Foundation for Defense of Democracies.
    Our second witness is Dr. Dafna Rand from the National 
Defense University. Dr. Rand has previously served as the 
Deputy Assistant Secretary at the State Department's Bureau of 
Democracy, Human Rights, and Labor.
    Our third witness is the Honorable Gerald Feierstein, from 
the Middle East Institute. Ambassador Feierstein was the U.S. 
Ambassador to Yemen from 2010 to 2013.
    Thank you for joining us. If you would just give your 
testimony in the order introduced, without objection, your 
written testimony will be entered into the record. If you could 
summarize in about 5 minutes, we would appreciate it.
    Thank you.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
             DEFENSE OF DEMOCRACIES, WASHINGTON, DC

    Mr. Joscelyn. Senator Corker and other members of the 
committee, thank you for inviting me here today to testify 
about Yemen.
    I agree with some of the comments that Yemen does not get 
enough attention and is not really well understood publicly. It 
is something we have been tracking for years at the Long War 
Journal very carefully.
    I am basically a counterterrorism nerd, so I track 
individual leadership and groups very carefully. That is what 
we do. And we are very concerned that what is going on inside 
Yemen today--well, first of all, we know it is going to keep 
going. I do not think there is any resolution on the near 
horizon whatsoever.
    The Houthi advances beginning in late 2014 and early 2015 
knocked out a valuable counterterrorism partner for the U.S. in 
President Hadi's government. This jeopardized a lot of what the 
U.S. policy was in Yemen and undermined sort of our security 
posture there.
    There is no doubt in my mind that the Houthi insurgency is 
fueled by Iran and Iranian weapons. There are plenty of open-
source reports to that effect.
    Some have said that the Houthis are not the equivalent of 
Hezbollah or an Iranian proxy. That is correct. I do not treat 
them as necessarily an Iranian proxy. But they are closely 
allied with Iran in the war, so I do not really care if they 
are a proxy or not.
    The bottom line is that is something that requires a lot of 
careful study, though, however, to understand sort of the 
dynamics within the Houthis and sort of how that all works.
    Focusing on AQAP, the rest of my comments will focus on Al 
Qaeda in the Arabian Peninsula, because this is probably the 
part of the story I think that is most poorly understood. You 
know, we have seen, with the rise of ISIS beginning in 2014, 
this understanding that ISIS declared this caliphate across 
much of Iraq and Syria, and then these so-called provinces 
elsewhere.
    And one of the common memes that was repeated was that ISIS 
was concerned with controlling territory whereas Al Qaeda is 
not. This is false. Al Qaeda has a different strategy for doing 
so, but they are building Islamic emirates right now as we sit 
here in several countries, including Yemen.
    And the project in Yemen goes back a long time. In fact, 
just recently in the last year, the State Department designated 
a senior Al Qaeda in the Arabian Peninsula founder and member 
of Al Qaeda, known as Ibrahim al Banna. This is a guy who was 
dispatched to Yemen in the early 1990s by Ayman al Zawahiri and 
Osama bin Laden to begin to develop their tribal relationships 
and their network in Yemen with the ultimate goal of trying to 
transform that society into something that looked like an Al 
Qaeda state.
    That is how far in advance they have been thinking about 
this. I would ask the Senators here today what you were doing 
in 1992 or 1993. I guarantee you probably had no idea where you 
would be, in most cases, this many years later in 2017. And yet 
Al Qaeda has that sort of forward thinking and strategic 
thinking about these matters.
    The other point I would make is that Al Qaeda in the 
Arabian Peninsula is also often referred to as an affiliate of 
Al Qaeda. We have used that language ourselves in the past. But 
it is actually more than that. On top of being a regional 
branch of Al Qaeda, which means it is responsible for waging 
jihad on the Arabian Peninsula, it also houses senior Al Qaeda 
leadership.
    So, for example, Nasir al-Wahishi was the former aide to 
camp to Osama bin Laden. He was killed in June 2015. He was 
actually the number 2 for Al Qaeda globally. So his decisions 
did not just impact what was going on inside Yemen. We have 
correspondence from him talking to Al Qaeda groups in West 
Africa all the way to South Asia.
    So what is happening inside Yemen, we believe today that Al 
Qaeda still has senior leadership there globally. It is not 
just about Yemen. It is about the big picture.
    Now one other point I would make about this. There is 
recently obviously the controversial counterterrorism raid in 
January that targeted Abdulrauf al Dhahab. This is a very 
interesting character, and this is why it is important to kind 
of get into the facts.
    There was a report in the Associated Press saying that 
Dhahab had actually just met with a senior member of Hadi's 
government the day before that raid that killed him, the day 
before he was killed in that raid, and that, in fact, he was 
getting funds and other sort of support from people who were 
involved in the fight against the Houthis.
    This is the type of thing which I would recommend to 
Senators and to others and anybody interested to take a very 
close look at because Al Qaeda in the Arabian Peninsula, what 
they have done is they have tried to basically integrate 
themselves with key tribal members, key tribal leaders, and 
other figures in Yemen. So it is often very difficult to figure 
out what you would consider an Al Qaeda leader and what you 
would consider just a tribal chieftain.
    Now that does not mean that they have universal tribal 
support or that all the tribes are on this side or that all the 
local players are on this side. Far from it. Nor does it mean 
that all the tribes actually have adopted the Al Qaeda 
ideology. We have to be very careful here. But they have their 
hooks in, in various places, in ways that are not calculated 
for us in terms of policy.
    And so when you look at that from that perspective, that is 
why the U.S. has been successfully taking out numerous senior 
Al Qaeda leaders in Yemen over and over again, and yet their 
insurgency grows. Their insurgency prospers.
    Today, the U.S. military CENTCOM estimates that they have a 
total number of fighters in the low thousands. I think that 
might be an underestimate.
    But I will point you back to the 2008-2009 time frame. The 
total estimate of the U.S. Government at that point was 
probably in the low hundreds. So this is an insurgency that has 
grown and has thickened and deepened within Yemen, and it is 
not going away anytime soon.
    I will stop there.
    [The prepared statement of Mr. Joscelyn follows:]

               Prepared Statement of Mr. Thomas Joscelyn

    Senator Corker and other members of the committee, thank you for 
inviting me here today to discuss the ongoing war in Yemen. 
Unfortunately, I do not see a way that this conflict can be resolved 
any time soon. Yemen is rife with internal divisions, which are 
exacerbated by the proxy war being waged by several actors. Arab 
states, Iran, and others see Yemen as a key battleground in their 
contest for regional power. In addition, al Qaeda has taken advantage 
of the crisis to pursue its chief objective, which is seizing territory 
and building an emirate inside the country.
    I discuss these various actors in my written testimony below and 
look forward to answering your questions.
 the iranian-backed houthi offensive has significantly undermined u.s. 
                        counterterrorism efforts
    Governance in Yemen has been a longstanding problem. But the Houthi 
offensive in late 2014 knocked President Abdrabbuh Mansur Hadi from 
power at a time when the U.S. was counting on his government to act as 
a vital counterterrorism partner.
    There is a debate over how close the Houthis and Iran really are. 
Some have argued that the Houthis should not be thought of as an 
Iranian terror proxy, such as Hezbollah. While this accurate--the 
Houthis have their own culture and traditions--there is no question 
that Iran and the Houthis are allies. And it is in Iran's interest to 
work with the Houthis against Saudi-backed forces in Yemen, while also 
encouraging Houthi incursions into the Saudi kingdom.
    The U.S. government has long recognized Iran as one of the Houthis' 
two key backers. (The other being former President Ali Abdullah Saleh 
and his network, which is discussed below.) In its Country Reports on 
Terrorism 2012, the State Department noted: \1\

        Iran actively supported members of the Houthi tribe in northern 
        Yemen, including activities intended to build military 
        capabilities, which could pose a greater threat to security and 
        stability in Yemen and the surrounding region. In July 2012, 
        the Yemeni Interior Ministry arrested members of an alleged 
        Iranian spy ring, headed by a former member of the IRGC.

    That warning proved to be accurate, as the Houthis made significant 
gains just over 2 years later. The U.S. and its allies have intercepted 
multiple Iranian arms shipments reportedly intended for the Houthis.\2\ 
And senior U.S. officials have repeatedly referenced Iran's ongoing 
assistance. Late last year, Reuters reported that ``Iran has stepped up 
weapons transfers to the Houthis,'' including ``missiles and small 
arms.'' \3\
    In September 2015, then-Secretary of Defense Ash Carter listed 
America's ``core interests in the region.'' Among them, according to 
Carter, was ``supporting Saudi Arabia in protecting its territory and 
people from Houthi attacks, and supporting international efforts to 
prevent Iranian shipments of lethal equipment from reaching Houthi and 
Saleh-affiliated forces in Yemen.'' \4\ The Houthis have responded by 
launching missiles at American ships, as well as ships operated by 
other countries.
 former president ali abdullah saleh and his supporters have worked to 
                undermine president hadi's's government
    Former President Saleh and his son have allied with the Houthis to 
thwart any chance of having a stable political process inside Yemen. 
The U.S. Treasury Department sanctioned Saleh and two Houthi military 
commanders in 2014, describing them as ``political spoilers.'' \5\ 
Saleh became ``one of the primary supporters of violence perpetrated 
by'' the Houthis as of the fall of 2012, and has provided them with 
``funds and political support.'' \6\ Then, in April 2015, Treasury 
sanctioned Saleh's son, Ahmed Ali Saleh.\7\ The junior Saleh was 
commander of Yemen's Republican Guard, but was removed from that post 
by Hadi. Still, Ahmed Ali Saleh ``retained significant influence within 
the Yemeni military, even after he was removed from command.'' And he 
has ``played a key role in facilitating the Houthi military 
expansion.''
  al qaeda in the arabian peninsula (aqap) is attempting to build an 
                         islamic state in yemen
    Al Qaeda is working to build Islamic emirates in several countries 
and regions, including Afghanistan, North and West Africa, Somalia, 
Syria, and Yemen. Unlike its rivals in the Islamic State (or ISIS), al 
Qaeda has adopted a long-term approach for state-building. While AQAP 
has begun to implement its version of sharia law in Yemen, it has not 
advertised the most gruesome aspects of its draconian code for fear of 
alienating the population. Still, AQAP controlled much of southern 
Yemen from April 2015 to April 2016, including the port city of 
Mukallah, where it reportedly earned substantial revenues via taxes. 
AQAP's forces simply melted away when the Arab-led coalition entered 
Mukallah and other areas. By doing so, AQAP presented itself as a 
protector of the local population and lived to fight another day. The 
group is capable of seizing more territory at any time.
      aqap isn't just an ``affiliate'' of al qaeda; it is al qaeda
    In addition to being a regional branch of al Qaeda's international 
organization, AQAP has housed senior al Qaeda managers who are tasked 
with responsibilities far outside of Yemen. For example, Nasir al 
Wuhayshi (who was killed in 2015) served as both AQAP's emir and as al 
Qaeda's general manager. At the time of his death, Wuhayshi was the 
deputy emir of al Qaeda's global operations.
    Beginning in 2014, the Islamic State (or ISIS), mushroomed in size 
after declaring the establishment of its so-called caliphate across a 
large part of Iraq and Syria. Some predicted, erroneously, that AQAP 
would defect to Abu Bakr al Baghdadi's cause in the event that Wuhayshi 
was killed. That prediction was based on a stunning ignorance of AQAP's 
organization and implicitly assumed that AQAP's loyalty to al Qaeda was 
embodied in a single man. Wuhayshi's successor, Qasim al Raymi, quickly 
reaffirmed his and AQAP's allegiance to Ayman al Zawahiri. Al Qaeda 
veterans and loyalists from a new generation of jihadists are peppered 
throughout AQAP's ranks.
  the u.s. has killed a number of top aqap leaders, but the group has 
 effectively replaced them and likely retains a bench of capable fill-
                                  ins
    Wuhayshi was one of several senior AQAP leaders killed in the drone 
campaign in 2015. Others have perished since. But AQAP has quickly 
filled their positions with other al Qaeda veterans, including Raymi, 
Ibrahim al Qosi (a former Guantanamo detainee), Ibrahim al Banna 
(discussed below), and others. Most of AQAP's insurgency organization, 
including its middle management, has not been systematically targeted. 
Therefore, the organization as a whole has not been systematically 
degraded. AQAP still threatens the West, but most of its resources are 
devoted to waging the insurgency and building a state inside Yemen. 
Recently, the U.S. has stepped up its air campaign, launching 40 or 
more airstrikes against AQAP this month. Those airstrikes are intended, 
in part, to weaken AQAP's guerrilla army. But it will require more than 
bombings to do that. Without an effective government representing most 
of the Sunni tribes and people, AQAP will continue to position itself 
as the legitimate ruler in many areas of Yemen.
                  al qaeda has deep roots inside yemen
    Osama bin Laden's and Ayman al Zawahiri's men first began to lay 
the groundwork for al Qaeda's organization inside Yemen in the early 
1990s, if not earlier. Zawahiri himself spent time in Yemen alongside 
his comrades in the Egyptian Islamic Jihad (EIJ), which effectively 
merged with bin Laden's operation in the 1990s. Zawahiri, his brother, 
and their fellow EIJ jihadists established a base of operations in 
Yemen. One of these EIJ veterans, Ibrahim al Banna, was designated as a 
senior AQAP leader by the U.S. government late last year.\8\ In 1992 or 
1993, Zawahiri ordered al Banna to oversee ``the administration'' of al 
Qaeda's ``affairs'' in Yemen, ``opening public relationships with all 
the students of knowledge and the notables and the tribal sheikhs.'' 
\9\ That was more than a quarter of a century ago. Yet al Banna, a co-
founder of AQAP, continues to command jihadists inside the country to 
this day.
    Al Qaeda has suffered multiple setbacks inside Yemen since al Banna 
was first dispatched to the country in the early 1990s. But the 
jihadists' patient approach has clearly borne fruit. An unnamed U.S. 
military official recently explained that AQAP has ``skillfully 
exploited the disorder in Yemen to build its strength and reinvigorate 
its membership and training.'' \10\ This same official estimated that 
AQAP's total group strength is in the ``low thousands,'' but warned 
that because many of its members are Yemeni ``they can blend in with 
the tribes there.''
    This assessment of AQAP's overall strength may or may not be 
accurate with respect to the total number of deployed fighters. But the 
U.S. has underestimated the size of jihadist organizations in the past, 
including the Islamic State (ISIS) and al Qaeda in Afghanistan. AQAP 
maintains a deep support network within Yemeni society that allows it 
to regenerate its forces and continue waging jihad despite fighting on 
multiple fronts for many years.
    The U.S. Treasury Department has outlined parts of AQAP's 
fundraising apparatus in a series of terrorist designations.\11\ 
Treasury's work has highlighted the mix of tribal politics, Gulf 
fundraising, and local banking that has helped fuel AQAP's war in 
Yemen.
    Files recovered in Osama bin Laden's compound reveal that al Qaeda 
has sought to maintain friendly tribal relations and avoid the mistakes 
made in Iraq, where the predecessor to the current Islamic State 
alienated tribal leaders.\12\ It is difficult to gauge the extent of 
ideological support for AQAP's cause within Yemen's tribes, but the 
jihadists do not need key tribes to be completely committed to their 
cause. While there have been tensions at times, AQAP benefits from the 
tribes' frequent unwillingness to back government forces against the 
jihadists.\13\
    Some tribal leaders are closely allied with AQAP, so much so that 
they have been integrated into the organization's infrastructure. This 
has led to an awkward situation in which some of AQAP's leaders are 
also partnered with Saudi Arabia, the United Arab Emirates, and Hadi's 
government in the war against the Houthis. For instance, during a raid 
against AQAP in January, U.S. forces killed a prominent tribal leader 
named Sheikh Abdel-Raouf al-Dhahab. The Associated Press (AP), citing 
``military officials, tribal figures and relatives,'' reported that 
Dhahab met ``with the military chief of staff in Hadi's government'' 
shortly ``before the raid.'' \14\ Fahd al-Qasi, Dhahab's ``top aide,'' 
accompanied Dhahab to the meeting and subsequently confirmed that it 
took place. ``During 5 days of talks with the military, al-Dhahab--who 
commands a force of some 800 tribal fighters--was given around 15 
million Yemeni riyals ($60,000) to pay his men in the fight against the 
rebels, al-Qasi and the two officials said,'' according to the AP. Al-
Qasi ``distributed the money to the fighters'' just hours before the 
raid.\15\
    AQAP has also benefited from its longstanding relationship with 
Shaykh Abd-al-Majid al-Zindani and his network. The U.S. Treasury 
Department first designated Zindani as a terrorist in 2004, describing 
him as a ``loyalist to Osama bin Laden and supporter of al-Qaeda.'' 
\16\ In 2013, Treasury said that Zindani was providing ``religious 
guidance'' for AQAP's operations.\17\ Zindani has been a prominent 
leader in Islah, which is a Yemeni political party affiliated with the 
Muslim Brotherhood. Saudi Arabia and Islah have a lengthy history of 
relations, which had cooled in the not-so-distant past. However, as a 
result of the Houthis' successful push across Yemen, Saudi Arabia has 
embraced Islah once again.\18\ Zindani himself has maintained friendly 
relations with the Saudis.\19\
    Zindani is the founder of Al-Iman University, which has served as a 
jihadist recruiting hub. Some al Qaeda leaders have not always been 
happy with the elderly ideologue. But one letter recovered in bin 
Laden's Abbottabad compound demonstrates why al Qaeda would not 
publicly criticize him. ``To be fair, a significant number of al-
Mujahidin who reach the jihadi arena here were instructed or prepared 
by him, especially the new Russian converts to Islam who moved from 
Russia to Yemen and stayed for a while at al-Iman University and then 
moved with their families to the field of Jihad,'' a senior al Qaeda 
leader wrote in March 2008.\20\ Whatever disagreements al Qaeda may 
have had with Zindani at times, he and his broad network have provided 
valuable support for AQAP's operations.
    The preceding paragraphs above give a brief overview of AQAP's deep 
network inside Yemen, demonstrating why it remains a potent force. The 
Islamic State has also established a much smaller presence inside 
Yemen. The Islamic State's men are capable of carrying out large 
attacks, particularly against soft targets such as funerals and 
markets. AQAP avoids such operations, seeing them as detrimental to its 
cause, which is based on building more popular support for the jihadist 
group.

----------------
Notes

    \1\ U.S. Department of State, ``Chapter 3: State Sponsors of 
Terrorism Overview,'' Country Reports on Terrorism 2012, May 30, 2013. 
(https://www.state.gov/j/ct/rls/crt/2012/209985.htm)
    \2\ See: ``U.S. Navy says it seized weapons from Iran likely bound 
for Houthis in Yemen,'' Reuters, April 4, 2016.(http://www.reuters.com/
article/us-iran-usa-yemen-arms-idUSKCN0X12DB)
    \3\ Yara Bayoumy and Phil Stewart, ``Exclusive: Iran steps up 
weapons supply to Yemen's Houthis via Oman-officials,'' Reuters, 
October 20, 2016. (http://www.reuters.com/article/us-yemen-security-
iran-idUSKCN12K0CX)
    \4\ Secretary of Defense Ash Carter, ``Statement on U.S. Policy and 
Strategy in the Middle East before the House Armed Services 
Committee,'' House Armed Services Committee Hearing, June 17, 2015. 
(https://www.defense.gov/News/Speeches/Speech-View/Article/606680)
    \5\ U.S. Department of the Treasury, Press Release, ``Treasury 
Sanctions Political Spoilers Threatening the Peace, Security and 
Stability of Yemen,'' November 10, 2014. (https://www.treasury.gov/
press-center/press-releases/Pages/jl2693.aspx)
    \6\ Ibid.
    \7\ U.S. Department of the Treasury, Press Release, ``Treasury 
Sanctions Instigators of the Violent Takeover of Yemen,'' April, 14, 
2015. (https://www.treasury.gov/press-center/press-releases/Pages/
jl10021.aspx)
    \8\ Thomas Joscelyn, ``State Department designates founding member 
of al Qaeda in the Arabian Peninsula,'' FDD's Long War Journal, January 
6, 2017. (http://www.longwarjournal.org/archives/2017/01/state-
department-designates-founding-member-of-al-qaeda-in-the-arabian-
peninsula.php)
    \9\ Thomas Joscelyn, ``An al Qaeda commander comes out from the 
shadows,'' FDD's Long War Journal, December 16, 2015. (http://
www.longwarjournal.org/archives/2015/12/an-al-qaeda-commander-comes-
out-from-the-shadows.php)
    \10\ Lisa Ferdinando, ``U.S. Conducts Second Day of Strikes Against 
Terrorists in Yemen,'' U.S. Central Command, March 3, 2017. (http://
www.centcom.mil/MEDIA/NEWS-ARTICLES/News-Article-View/Article/1103200/
us-conducts-second-day-of-strikes-against-terrorists-in-yemen/)
    \11\ See: U.S. Department of the Treasury, Press Release, 
``Treasury Designates Key Facilitators and Front Company Providing 
Support to Al-Qa'ida in the Arabian Peninsula,'' December 7, 2016. 
(https://www.treasury.gov/press-center/press-releases/Pages/
jl0673.aspx); U.S. Department of the Treasury, Press Release, 
``Treasury Designates Financial Supporters of al-Qaida in the Arabian 
Peninsula,'' November 1, 2016. (https://www.treasury.gov/press-center/
press-releases/Pages/jl0601.aspx); Thomas Joscelyn, ``US Treasury 
continues to target AQAP's financial network,'' FDD's Long War Journal, 
December 7, 2016. (http://www.longwarjournal.org/archives/2016/12/us-
treasury-continues-to-target-aqaps-financial-network.php)
    \12\ See Office of the Director of National Intelligence (ODNI) 
summary of a July 18, 2010 letter from Atiyah Abd al Rahman to Nasir al 
Wuhayshi. (https://www.dni.gov/files/documents/ubl/english/
Letter%20dtd%2018%20JUL%202010.pdf)
    \13\ See, for example: Nadwa Al-Dawsari, ``Tribes and AQAP in South 
Yemen,'' Atlantic Council, June 5, 2014. (http://
www.atlanticcouncil.org/blogs/menasource/tribes-and-aqap-in-south-
yemen)
    \14\ Maggie Michael and Ahmed al-Haj, ``Pro-government tribal 
leader among dead in US raid in Yemen,'' Associated Press, February 16, 
2017. (http://bigstory.ap.org/article/d927fc2962f44a6d8edf6a790b556bbc/
pro-government-tribal-leader-among-dead-us-raid-yemen)
    \15\ Ibid.
    \16\ U.S. Department of the Treasury, Press Release, ``United 
States Designates bin Laden Loyalist,'' February 24, 2004. (https://
www.treasury.gov/press-center/press-releases/Pages/js1190.aspx)
    \17\ U.S. Department of the Treasury, ``Treasury Designates Al-
Qa'ida Supporters in Qatar and Yemen,'' December 18, 2013. (https://
www.treasury.gov/press-center/press-releases/Pages/jl2249.aspx); Thomas 
Joscelyn, ``Latest Treasury designation targets al Qaeda's fundraising 
network,'' FDD's Long War Journal, December 19, 2013. (http://
www.longwarjournal.org/archives/2013/12/treasury--designation.php)
    \18\ Neil Patrick, ``Saudi Arabia's Problematic Allies against the 
Houthis,'' The Cairo Review of Global Affairs, February 14, 2016. 
(https://www.thecairoreview.com/tahrir-forum/saudi-arabias-problematic-
allies-against-the-houthis/)
    \19\ David Andrew Weinberg, ``UN official reportedly meets with 
Iraqi on al Qaeda sanctions list,'' FDD's Long War Journal, October 30, 
2015. (http://www.longwarjournal.org/archives/2015/10/un-official-
reportedly-meets-with-iraqi-on-al-qaeda-sanctions-list.php)
    \20\ The letter appears to have been prepared by Atiyah Abd al 
Rahman, but includes excerpts written by multiple al Qaeda leaders, 
including Abu Yahya al Libi. A translation of the letter can be found 
at: https://www.dni.gov/files/documents/ubl/english/
Letter%20dtd%20March%202008.pdf

    The Chairman. Thank you very much.
    Dr. Rand.

   STATEMENT OF DAFNA RAND, ADJUNCT SENIOR RESEARCH FELLOW, 
          NATIONAL DEFENSE UNIVERSITY, WASHINGTON, DC

    Dr. Rand. Thank you, Chairman Corker, Senator Cardin, 
members of the committee. Thanks for inviting me.
    I would like to focus this short summary of my testimony on 
U.S. interests, in particular, if you will allow, because I 
want to focus on the urgent policy objective for the United 
States in Yemen, which I believe is ending what has become a 
stalemated conflict.
    My colleague has already laid out a very important central 
U.S. national security interest. Al Qaeda in the Arabian 
Peninsula has grown because of the continuation of this 
conflict and the tragic human toll and the security vacuum.
    We have other interests in Yemen. We have our interest in 
freedom of navigation of the Red Sea. We have a strong interest 
in protecting Saudi Arabia, our partner and ally, sovereignty. 
And we have a strong interest in deterring Iranian aggression.
    Let us just start with U.S. interests because I think, as 
the Senators have mentioned, our policy and strategy must flow 
from analysis of those interests. But in order to secure these 
interests, the most direct and immediate policy goal should be 
to end this war. To get there, we need a strategy of de-
escalation between the civil conflict that has endured between 
the Government of Yemen and the Saleh Houthi forces.
    And we are facing two overlapping battlefields, in a sense. 
We cannot fully fight Al Qaeda until we end the other war, 
which has gone on months and years longer than we thought, than 
the Saudis thought, and than the Yemenis thought.
    The United States has tried a strategy of unconditional 
support for the coalition. We have supported its military 
operations through a number of military and intelligence 
support elements, including arms sales but not limited to arms 
sales. We have backed this coalition because of our deep 
loyalty to our partners and because we agree with the goals of 
deterring Iran and supporting the Government of Yemen. We share 
the goal of sending a message to the Houthis and the Iranians 
that interference militarily in a political negotiation is 
absolutely unacceptable.
    Yet even as we have tried this strategy for 2 years, we 
always knew that the endgame would be a negotiated settlement. 
Military victory could not and would not finalize feuds and 
competitions that have been going on for decades.
    We always knew that the Yemenis themselves would have to 
sit around a negotiating table and answer the key question of 
who is going to rule.
    As the civil war has generated a humanitarian catastrophe 
in Yemen, we pushed with the United Nations in 2016, last year, 
for the parties to agree to a cessation of hostilities, which 
lasted 3 or 4 months. But then it broke down last August 2016, 
and it was followed by a wave of renewed violence that was 
extremely damaging.
    We began to reevaluate the overarching strategy, realizing 
that we needed to push ourselves more in a position of defense 
rather than offense. But let us go back to our interests.
    Today, there is an urgent threat posed by AQAP and other 
terrorists, as my colleague has enunciated. The ongoing war has 
now become a civil conflict between a panoply of forces. It has 
morphed into a civil conflict with Yemeni militias and security 
services and Iranian-backed Houthis, plus former President 
Saleh on one side against a range of Yemeni militias and the 
Government of Yemen forces on the other side. It has reached a 
stalemate, as we have heard.
    The continued fighting is destroying the country, and it is 
leading to a situation where thousands of lives are being lost, 
and 80 percent of the country is in need of humanitarian 
assistance.
    It is the persistence of this conflict that has led to 
humanitarian tragedy. It is persistence of this conflict that 
has strengthened the Iranian connection to the Houthis. It has 
deepened Iran's interaction and interference in the Arabian 
Peninsula, and it has benefited Iran geopolitically. It is the 
endurance and persistence of this conflict that has directly 
materially advantaged AQAP.
    Yet some are now advocating an escalation in our support 
strategy, increasing our assistance to the coalition, 
facilitating directly offensives to retake Houthi areas, 
including the important port cities of the Red Sea area, 
including Hodeidah. Just to remind the committee, this is the 
area where 90 percent of U.N. food assistance and 70 percent of 
Yemen's pre-war commercial food imports enter Yemen.
    Helping the coalition launch new assaults on Houthi-
controlled territory may allow for the capture of new cities, 
but it will result in even more bloodshed, and it is unlikely 
to change the negotiation calculus of either side.
    The Houthis are looking for guarantees of political 
inclusion in the formal government process, and these issues 
will be worked out whether or not the coalition retakes a few 
more cities.
    In fact, there is a great danger of escalation, and there 
is a greater danger of a strategy of punishment against the 
northern area of Yemen. This will not work. We know from other 
civil conflicts, in fact, that as the human toll worsens, the 
insurgents themselves benefit and their maximalist positions 
harden.
    And there are also significant risks of escalation for us. 
While our intent may only be defensive, to help our allies 
fight the Houthis, Iran and the Houthis may perceive our new 
forms of support as offensive, inviting greater attacks against 
our ships and greater insecurity for interests in the Red Sea 
and elsewhere.
    There are some who advocate for offensive confrontation 
with Iran, and that might be legitimate. But this is not the 
most direct or wise way to confront Iranian ambitions in the 
region.
    So in short, instead of supporting escalation, we should 
continue the difficult strategy of refining our strategy and 
putting America's goals, interests, and values first. We should 
prioritize counterterrorism, as has been discussed; support the 
defense of the Saudi Arabian border area and other defensive 
needs that we have; dissuade the coalition diplomatically from 
escalating any operations, particularly in the Hodeidah Port 
area; review our security assistance in keeping with our laws, 
our policy precedents, and presidential practice since the 
1980s; continuing focus on humanitarian access and assistance. 
We are the largest contributor in terms of the numbers of 
dollars spent on food aid to the Yemeni people, but it is the 
access of this aid into Yemen that is very important 
diplomatically. And finally, we should continue doubling down 
to facilitate dialogue to generate an immediate truce followed 
by a new transitional government.
    With that, I would welcome your questions, and I look 
forward to hearing my colleague.
    [The prepared statement of Dr. Rand follows:]

                Prepared Statement of Dr. Dafna H. Rand

    Chairman Corker, Ranking Member Cardin, and Committee members, 
thank you for inviting me to testify and for holding a hearing on this 
critical issue. At the 2-year mark of the war in Yemen, this testimony 
focuses on what should be the most urgent policy objective for the 
United States--ending this conflict--and how to get there. Ending this 
conflict is the most direct way to secure our priority national 
security interest in Yemen, which is to counter the threat from Al-
Qaeda in the Arabian Peninsula (AQAP) and other terrorist groups that 
directly threaten American citizens. We have other interests as well, 
including protecting Saudi Arabia's sovereignty, protecting freedom of 
navigation in the Red Sea, and deterring Iranian aggression.
         defining america's interests in yemen, and designing 
                       a strategy to achieve them
    In order to best secure our interests, ending this conflict is 
paramount. Yet finding a strategy to achieve this objective has been 
challenging. The United States has supported the Saudi-led military 
Coalition in its efforts to restore the government of President Abd 
Rabbo Mansour Hadi even as we have urged regional leaders, with the 
United Nations, to seek a negotiated settlement. At the same time, we 
have tried to confront the growing threat from terrorist groups in 
Yemen.
    While the United States has not been a member of the Saudi Arabian-
led Coalition in a formal sense, we have directly supported its 
military operations. Many aspects of the Coalition operations can be 
linked directly or indirectly to U.S. training, cooperation, and 
assistance, and certainly many Yemenis blame us for the conflict's 
tragic toll. In spite of this involvement, the United States has had 
uneven influence on the Coalition's strategic military decision-making 
throughout the war, and has been unsuccessful in convincing our 
partners to accept various power-sharing agreements.
    Two years into this war, this strategy--offering a U.S. imprimatur 
and assistance without exercising meaningful influence--has not 
achieved the desired goals: ending the conflict and restoring to Yemen 
a sovereign government presiding over a unified security apparatus. In 
2016, recognizing this fact, the former administration was re-
evaluating the strategy, and wisely focusing more on defensive support 
to the Coalition coupled with shuttle diplomacy.
    Yet some are now advocating that we significantly increase our 
assistance to the Coalition--including by directly facilitating new 
offensives into Houthi-controlled areas of the country such as Red Sea 
ports, including Hodeidah. About 90 percent of U.N. food assistance and 
70 percent of Yemen's pre-war commercial food imports have entered 
Yemen through Red Sea ports.\1\
    This would be a serious mistake. Pouring more fuel on the fire 
risks rapid escalation--for our partners, to be sure, but also for us. 
While some advocate an escalatory offensive to tame the Houthis, deter 
Iran, and end the war, the more likely scenario is a greater quagmire, 
with more lives lost and even greater Iranian support for the Houthis. 
Even if the Coalition were willing to use a strategy of punishment 
against the Yemenis living in the north, the Houthis would be unlikely 
to submit. They may come to negotiations in a weaker position in the 
short term; however, over time, as they always have, they will retreat 
and then re-emerge--more empowered and ready for the next round.
    For the United States, our own direct involvement in an escalation 
could invite a classic security dilemma. While our intent may only be 
the defense of our allies, the Houthis and Iran may perceive such 
support as a direct threat, inviting the greater likelihood of attacks 
against our own ships in the Red Sea. Even to those who welcome an 
offensive U.S. military confrontation with Iran, this is not the most 
direct or wise way to challenge Iranian ambitions in the region.
    Instead of supporting escalation, we should continue the difficult 
work of refining our strategy, putting America's goals, interests, and 
values first. We should:

  <bullet> Prioritize the counter-terrorism fight against AQAP and 
        other terrorists.

  <bullet> Support the defense of Saudi Arabian territory by offering 
        assistance and cooperation to protect Saudi's border along with 
        other defensive needs.

  <bullet> Dissuade the Coalition from escalating its operations in 
        northern and western Yemen, particularly in the Hodeidah 
        governorate and the Red Sea port region. Because of our 
        country's lessons learned in Iraq and Afghanistan, our military 
        is a credible messenger to explain why punishment strategies 
        rarely change hearts and minds or political outcomes.

  <bullet> Review security assistance and cooperation elements intended 
        for offensive purposes, particularly items that have caused the 
        most civilian harm. When, for reputational, policy, or legal 
        reasons, the risks to the United States outweigh the strategic 
        necessity of these security assistance items, we should pause 
        on certain sales in keeping with the letters of agreement 
        governing these sales, the general intent of the Arms Export 
        Control Act, and U.S. presidential policy precedent since the 
        1980s.

  <bullet> Prioritize humanitarian assistance and humanitarian access.

  <bullet> Facilitate dialogue to generate an immediate truce, followed 
        by a new transitional government based on power sharing. Our 
        most important work can then begin, as we invest in the new 
        government's success, protecting its stability, credibility, 
        and capacity to govern. The end goal should be a more stable 
        Yemen led by an even stronger counter-terrorism (CT) partner.
          ending the conflict is an urgent policy objective: 
                      three consensus conclusions
    While there are divergent views about our strategic options, it is 
worth noting three analytic conclusions where there is general 
consensus: First, the human costs of this war are undisputed. As a 
direct result of the fighting, at least 10,000 Yemeni lives have been 
lost,\2\ 80 percent of the country is in need of humanitarian 
assistance, and the country teeters on the brink of an official famine. 
While Yemeni citizens have borne the brunt of the conflict, the 
violence has spread over time; now many Saudis living in the border 
region are more endangered than they were 2 years ago.\3\ In Yemen, 
what was already the poorest country in the region has turned into a 
failed state where children are dying from malnutrition and preventable 
disease. It will take decades for the Yemeni people to rebuild their 
institutions and infrastructure.
    Second, whatever the original motives behind Iran's support for 
Houthi military aggression in 2014-2015, the civil strife in Yemen has, 
over 2 years, increased Iran's opportunity to meddle in the Arabian 
Peninsula. Reasonable, evidence-based disagreement persists regarding 
the scope and depth of the Iran-Houthi linkage.\4\ However, it is clear 
that the longer this conflict endures, the more it benefits Iran's 
geopolitical ambitions.
    Third, while the conflict inherently advantages Iran, the material 
winner is Al-Qaeda in the Arabian Peninsula (AQAP) and associated 
terrorists, including the Islamic State of Iraq and Syria (ISIS).\5\ 
These groups thrive in ungoverned spaces wracked by population 
displacement and war. They are redoubling their efforts to plot, train, 
and threaten the United States and our allies.
                        calibrating our strategy
    Because the endurance of this conflict is generating one of the 
world's greatest humanitarian crises, enabling Iranian meddling, and 
tangibly benefiting AQAP and other terrorists, investing in ending this 
war is an urgent national security interest and should continue to be 
our chief policy priority.
    In our role as partner and friend, we should voice strong 
perspectives and influence the Coalition members' decisions on military 
strategy, escalation, civilian protection, and cease-fires. This type 
of back and forth is the centerpiece of strong international 
relationships, and indeed we have had these types of honest, critical 
conversations with other key allies in the region. Our support and 
assistance to these partner militaries should allow us this type of 
influence. Convincing our partners to focus on mitigating civilian harm 
is particularly central; we know from our own military experiences over 
the past 15 years that when grievances turn from local issues toward 
anger at U.S. military intervention, our security and global standing 
suffer. Whether Yemenis are angry about the Coalition air war or Houthi 
aggression, or both, it is much simpler to blame U.S. involvement, 
fueling anti-American radicalization.
    A strategy based on fine-tuning our support for the Coalition will 
be a dynamic process, reflecting the events on the battlefield and in 
the negotiation channels. Here are key organizing principles of such a 
strategy:

  <bullet> Support Saudi Arabia's and other partners' critical 
        defensive needs: We should be searching for new and concrete 
        ways to protect Saudi Arabia's homeland defenses and to 
        cooperate around defensive actions, including cooperation to 
        protect international navigation through the Bab-el-Mandeb 
        straits.

  <bullet> Use diplomacy to dissuade any new offensive: New offensives 
        in Hodeidah and other areas of Yemen are unlikely to lead to 
        greater gains at the negotiating table for the government of 
        Yemen and its allies. Counter-insurgency strategies predicated 
        on punishing communities until they disassociate with 
        insurgents rarely work. In most cases, such campaigns harden 
        the political views of the communities under attack, driving 
        the insurgents toward more maximalist positions. Instead, 
        continuing to urge our partners toward de-escalation and 
        conflict resolution sends a signal that the United States will 
        accept a government of Yemen that includes Houthi interests and 
        actors. U.S. Central Command (CENTCOM) should be involved in 
        this messaging, as our Generals' sound military judgment will 
        continue to be respected in the region.

  <bullet> Ensure humanitarian access. The United States invests 
        heavily in humanitarian assistance to Yemen, but this 
        investment demands that we also use private and public 
        diplomacy to ensure that the Coalition continues protecting 
        humanitarian access and transport. This is critical if there is 
        a new round of fighting in the Red Sea port area, the transport 
        hub through which most Yemenis receive food and assistance.

  <bullet> Continue U.S. civilian and military efforts to reduce 
        civilian casualties and improve the humanitarian situation: 
        Since 2015, the State Department has led a diplomatic effort 
        urging our Coalition partners to limit civilian casualties; 
        this diplomacy contributed in part to the establishment of 
        Saudi Arabia's Joint Incidents Assessment Team (JIAT). Our 
        diplomacy in this area should continue, strengthening this 
        emerging accountability mechanism and focusing on the following 
        issues in Coalition operations: pushing the Coalition to adhere 
        to the no-strike list (NSL) in all targeting; ensuring that the 
        Coalition addresses the operational gaps in dynamic targeting 
        capabilities that were reflected in the JIAT's August 2016 
        releases; \6\ and encouraging the Saudis to hold accountable 
        those involved in the civilian attacks that have occurred in 
        2015 and 2016.

        The State Department's efforts must be complemented by 
        rigorous, consistent Department of Defense diplomacy and 
        training efforts, particularly with the Royal Saudi Airforce 
        and other key security partners. The training must focus on 
        winning counter-insurgencies, including by prioritizing 
        civilian protection issues. This means that our standard laws 
        of armed conflict training approaches may be insufficient. We 
        will need new training modules in order to help our partners 
        develop operational approaches that situate civilian safety and 
        humanitarian access as a central element of counter-insurgency 
        doctrine. This is an issue where values and interests clearly 
        converge.

  <bullet> Evaluate proposed foreign military sales (FMS) cases and 
        other forms of offensive operational support to the Coalition: 
        The Arms Export Control Act outlines how foreign policy 
        considerations should be taken into account in arm exports 
        decisions. Presidents Reagan, George H.W. Bush, Clinton, George 
        W. Bush and Obama stopped foreign military sales--at times to 
        our closest allies--when they were concerned about how these 
        sales were being used, or simply because of a lack of 
        visibility into the end use. Holding or pausing on isolated arm 
        sales where there are questions represents good policy 
        diligence and discipline, given the potential legal, 
        reputational, and policy risks of the sales.

  <bullet> Focus on achieving a power-sharing agreement to form a 
        stable new government: If a new government is installed in 
        Sanaa but is unacceptable to powerful stakeholders in the 
        country, it will not survive. There is a high likelihood that 
        cyclical government failure becomes the norm in Yemen. Because 
        our national security interest in fighting AQAP, ISIS, and 
        other groups demands that we have a counterterrorism partner in 
        the Yemeni government, we need to ensure stability, built upon 
        inclusive and effective governance. There are signs that some 
        members of the Saudi government are becoming more flexible on 
        the composition of the future Yemeni government, moving beyond 
        the original demand for the restoration of President Hadi and 
        his government. We must be prepared to offer economic support 
        and humanitarian assistance to ensure that the new government 
        can quickly provide services and oversee Yemen's 
        reconstruction.
                 conclusion: the dangers of escalation
    Therefore, even if our partners request such support, choosing to 
aid an escalation in Yemen would be unwise. The strength of U.S. 
relationships with friends should not be measured by our willingness to 
acquiesce to their strategic and operational decisions, particularly 
when those decisions may lead to mistakes for which the United States 
will get blamed and that harm our interests. Working to influence 
threat perceptions, to urge restraint, to improve military conduct, to 
refine their overall strategy, and to decide ourselves which FMS items 
and other operational support we offer is an approach that reflects the 
strength of our friendship with Saudi Arabia and other partners.
    Increasing our involvement would also be unwise because the war has 
evolved. In mid-2015, we lent our support to push back against an 
Iranian-backed Houthi insurgency that drove out a legitimate 
government. Today, different factions of Yemeni militias and security 
forces have joined in on either side, including forces loyal to former 
President Ali Abdullah Saleh. The narrative has become more complex as 
the number of combatants has grown and with the Emiratis in particular 
fighting al-Qaeda and other terrorists, in addition to the Houthis. 
Furthermore, ISIS has gained some momentum in Yemen,\7\ increasingly 
complicating the environment. Given that our top-priority, urgent 
national security interest should be to focus on combating the threat 
from AQAP and other terrorists, getting more involved in the Yemeni 
civil conflict on the side of the Coalition is both a distraction and 
could make matters worse.
    Finally, increasing our support to back a new offensive runs the 
significant risk of regional military escalation. It could provoke an 
unintended confrontation with Iran. Any new offensive in the Red Sea 
port region and Hodeidah is likely to draw greater fire against our 
naval vessels and our partners' ships in the Bab-el-Mandeb straits, and 
increase the threat to the international freedom of navigation through 
this busy commercial passageway. U.S. support for an escalatory 
offensive by our partners would invite Iran and others to retaliate 
more directly against our interests. While the current administration 
may have legitimate reasons to confront Iran, doing so via increasing 
our military support to partners is unwise and unlikely to succeed. We 
run the significant risk of dragging the United States into a new war 
in the Middle East, but this one would occur on our partners' terms, 
with the United States in a supporting role and with limited U.S. 
influence over the strategy and the end game.

----------------
Notes

    \1\ Eric Pelofsky, ``Escalation in Yemen Risks Famine, Collapse, 
Iranian Entrapment,'' The Hill, February 23, 2017, http://thehill.com/
blogs/pundits-blog/international-affairs/320840-escalation-in-yemen-
risks-humanitarian-crisis.
    \2\ In August 2016, the United Nations estimated that 10,000 
civilians had been killed. See Jeremy Sharp, ``Yemen: Civil War and 
Regional Intervention,'' Congressional Research Services, Report to 
Congress. November 16, 2016, https://fas.org/sgp/crs/mideast/
R43960.pdf.
    \3\ ``Saudi Border Guards Killed in Attacks,'' Al-Jazeera, January 
5, 2017, http://www.aljazeera.com/news/middleeast/2015/01/saudi-border-
guards-killed-attack-20151573425245939.html.
    \4\ Katherine Zimmerman, ``Warning to the Trump Administration: Be 
Careful About Yemen,'' Fox News, February 28, 2017, http://
www.foxnews.com/opinion/2017/02/28/warning-to-trump-administration-be-
careful-about-yemen.html. In April 2015, National Security Council 
spokeswoman Bernadette Meehan remarked that ``It remains our assessment 
that Iran does not exert command and control over the Houthis in 
Yemen.'' See, ``Iran Warned Houthis Against Yemen Takeover,'' 
Huffington Post, April 20, 2015
    \5\ Nicole Gauoette, ``US in Yemen: If you threaten us, we'll 
respond,'' CNN Politics, October 14, 2016, http://www.cnn.com/2016/10/
13/politics/yemen-us-strike-iran-houthis/index.html.
    \6\ Saudi Press Agency, Joint Incidents Assessment Team (JIAT) on 
Yemen Responds to Claims on Coalition Forces' Violations in Decisive 
Storm Operations, August 5, 2016 http://www.spa.gov.sa/
viewstory.php?lang=en&newsid=1524799
    \7\ ``Gulf of Aden Security Review,'' American Enterprise 
Institute's Critical Threats Projects, January 31, 2017, https://
www.criticalthreats.org/briefs/gulf-of-aden-security-review/gulf-of-
aden-security-review-january-31-2017

    The Chairman. Thank you very much.
    Mr. Ambassador.

STATEMENT OF HON. GERALD M. FEIERSTEIN, DIRECTOR OF THE CENTER 
    FOR GULF AFFAIRS, MIDDLE EAST INSTITUTE, WASHINGTON, DC

    Ambassador Feierstein. Thank you very much. Chairman 
Corker, Ranking Member Cardin, members of the committee, thank 
you for providing me with this opportunity to speak to you 
today about Yemen and the tragic circumstances confronting the 
Yemeni people.
    We have all reviewed and recited the statistics of this 
conflict--over 10,000 killed, perhaps 40,000 or more injured. 
The U.N. reports over 3 million of Yemen's 27.5 million 
citizens internally displaced. Over half of the population is 
food insecure. And some 7 million Yemenis are malnourished or 
at risk of starvation.
    When the United States and Saudi Arabia, alarmed by the 
rapid deterioration of political conditions in Sana'a, and 
faced with a virtual coup there by the Houthis, a pro-Iranian 
militia supported by forces loyal to former President Ali 
Abdullah Saleh, we agreed that an intervention in Yemen should 
seek to achieve four objectives: first, restoring the 
legitimate Government of Yemen to complete implementation of 
the GCC initiative consistent with United Nations Security 
Council Resolution 2216; second, preventing a Houthi-Saleh 
takeover of the government by force; third, securing the Saudi-
Yemeni border; and forth, defeating Iran's efforts to establish 
a foothold in the Arabian Peninsula, threatening Saudi and gulf 
security.
    At the outset of the conflict, we were optimistic that the 
military pressure on the Houthis and Saleh forces would quickly 
stabilize the situation and allow for a return to the political 
process. This has not, unfortunately, been the case.
    After 2 years of fighting, the military situation has 
stalemated. The political process, despite some optimism last 
year that negotiations in Kuwait under the auspices of the 
United Nations would succeed, has also not made progress.
    The Government of Iran has been a main beneficiary of the 
conflict in Yemen. At a relatively low cost, Iran has inflicted 
an expensive, draining conflict on the Saudis and their 
coalition partners. The Saudis have suffered reputational 
damage internationally. And the conflict has caused friction 
between Saudi Arabia and its key Western partners, the United 
States and the United Kingdom.
    It is important as well to address an additional 
complication in the Yemen equation, as my colleague Mr. 
Joscelyn has observed. That is the resurgence of Al Qaeda in 
the Arabian Peninsula.
    Legitimately concerned by Al Qaeda's ability to resurrect 
its presence in Yemen and potentially pose new threats to 
global peace and security, the U.S. has resumed kinetic 
operations to deter and defeat the organization. I believe that 
the U.S. actions are justifiable, but the additional layers of 
complexity that we now confront in Yemen argue for extreme 
caution in conducting military operations there.
    Our objective of defeating and destroying violent extremism 
in Yemen is a long-term challenge that requires a long view on 
achieving it. Preserving the goodwill and cooperation of the 
Yemeni people is essential, if we are to be successful. And 
there is no quicker way to lose that goodwill than through ill-
conceived military operations that generate high numbers of 
civilian casualties.
    Thus, we must maintain the standard of near certainty that 
there will be no collateral damage in our operations, and we 
must preserve our strong record of cooperation with President 
Hadi and his government.
    In my experience, the U.S. Ambassador is a key player in 
maximizing our effectiveness, both as the main interlocutor 
with the government and as the U.S. official with the most 
accurate perspective on the impact these operations are having 
on the ground.
    In conclusion, with little prospect of an immediate 
resolution of the conflict and in the face of increasing 
complexity as tribal, sectarian, and counterterrorism issues 
are introduced, Yemen's ultimate survival as a unified country 
hangs in the balance.
    Under those circumstances, we should aim at achieving two 
basic goals in 2017: first, a limited political agreement that 
allows the parties to return to Sana'a to continue their 
negotiations, provides for security in the capital, and 
restores some functionality to the government; and second, 
urgent measures to address the humanitarian crisis.
    If successful, these measures will provide for the 
stability needed to make further progress in the coming year to 
install a new interim government, complete the transition 
process, begin to address broader security issues, promote 
economic activity, and prepare for elections.
    Mr. Chairman, even with success in these tasks, Yemen's 
recovery will be long and the ultimate outcome not assured. But 
without these measures, Yemen's continued dissent into complete 
social, political, and economic collapse is all but guaranteed.
    Thank you, and I look forward to addressing your questions.
    [The prepared statement of Ambassador Feierstein follows:]

     Prepared Statement of Ambassador (Ret'd) Gerald M. Feierstein

    Mr. Chairman, Mr. Ranking Member, Members of the Committee: Thank 
you for providing this opportunity to speak to you today about Yemen 
and the tragic circumstances confronting the Yemeni people.
                               background
    Although not without shortcomings, the overall implementation of 
the GCC Transition Agreement and the Implementing Mechanism signed in 
November 2011 by the parties to the Yemen political crisis, and 
supported by the U.S. and the international community, was a success. 
In the spring of 2014, the key step in the transition process, the 
National Dialogue Conference, was concluded and its final document was 
signed by all parties, including the Houthis. A Constitutional drafting 
committee was impaneled and worked through the summer of 2014 to 
complete recommended revisions and amendments to Yemen's Constitution 
to be submitted to the National Dialogue for final approval. Few steps 
remained before the Yemeni people would be able to go to the polls and 
elect a new government, completing a peaceful transition of power.
    Frustrated by their inability to achieve gains through the 
manipulation of the political process, however, the Houthis, a small, 
Zaydi Shi'a clan based in the governorate of Saada, in the northwest 
corner of Yemen, and former President Ali Abdullah Saleh, placed 
increasing military pressure on the government through the summer and 
fall of 2014 aimed at overturning the political process. Eventually, 
the Houthi and pro-Saleh forces were able to take advantage of the 
weakness of the transitional government and Yemen's security forces to 
move aggressively into Sana'a and overthrow President Abd Rabbo Mansour 
Hadi and his government. The precipitous collapse of the Hadi 
government, and the power grab by a group closely associated with the 
Government of Iran and hostile to key U.S. goals and objectives, 
alarmed the Obama Administration as well as our friends and partners in 
the region. There was agreement among Yemen's international partners 
that an intervention in Yemen should be based on four key objectives:

  <bullet> Restoring the legitimate government in Yemen to complete the 
        implementation of the GCC Initiative and the National Dialogue 
        Conference consistent with UNSCR 2216.

  <bullet> Preventing a Houthi/Ali Abdullah Saleh takeover of the 
        government through violence.

  <bullet> Securing the Saudi-Yemeni border.

  <bullet> Defeating Iran's efforts to establish a foothold in the 
        Arabian Peninsula threatening Saudi and Gulf security.

    While there was optimism initially that a Saudi-led Coalition could 
quickly stabilize the situation in Yemen, this has not been the case. 
As the conflict in Yemen draws to the end of its second year, the human 
toll of the political tragedy continues to mount. Rough estimates of 
civilian casualties since fighting began in March 2015 may now exceed 
10,000 killed with over 40,000 injured, according to press reports. The 
United Nations Office for the Coordination of Humanitarian Affairs 
(OCHA) has reported that over three million of Yemen's 27.5 million 
citizens have been internally displaced by the conflict, while over 
half the population is considered food insecure. Famine and epidemics 
of disease may be on the near horizon. Five years after Abd Rabbo 
Mansour Hadi's election as interim president started the clock on the 
only negotiated political transition of the Arab Spring, the future 
survival of Yemen hangs in the balance.
            what were the obstacles that prevented success?
    As events unfolded in the spring of 2015, the rapid collapse of the 
Hadi government throughout the country and their subsequent flight to 
Saudi Arabia undercut Coalition plans to defend Yemen's second city, 
Aden, and establish a secure position there to push back against 
Houthi/Saleh aggression. Instead, the Coalition found itself in a 
position of relying almost entirely on air power to prevent a complete 
takeover. Given the Coalition's reluctance to establish a large ground 
presence in Yemen, this left the Hadi government and its international 
partners in a weak position to contest the Houthi/Saleh forces for 
control of territory until the time that Yemen's security forces could 
be reconstituted and given the mission of establishing territorial 
control. It has also placed the Coalition forces in a situation not 
dissimilar to that faced by U.S. forces in conflicts like Afghanistan: 
they are fighting a low-tech insurgency where their massive advantage 
in sophisticated weapons is neutralized; the insurgents are fighting on 
their own turf, which they know well; they blend in with the local 
population, making identification of legitimate targets difficult; and 
they are willing to make extraordinary sacrifices to avoid defeat.
    For the Government of Iran, the Coalition's inability to defeat the 
insurgents and restore the legitimate government in Yemen is a 
significant win. Iranian support for the Houthis comes at very little 
cost. A number of IRGC personnel and their Hizballah allies have been 
killed or captured in Yemen but, compared to the toll in Syria, the 
losses have been negligible. The Iranians have provided primarily low-
tech weapons, although we have seen in recent weeks an increase in the 
sophistication of Iranian-provided weaponry, including surface-to-
surface and anti-ship missiles that have been used successfully against 
targets in Saudi Arabia and against shipping in the Red Sea. By 
contrast, the financial burden of the conflict in Yemen has been heavy 
for the Saudis and their Coalition partners. Perhaps the greatest, and 
most unanticipated, benefit of the conflict to Iran has been the strain 
it has placed on Saudi Arabia's relationships with its key western 
partners, principally the U.S. and the UK. The reputational damage to 
Saudi Arabia and its Coalition partners should not be under-estimated. 
Accusations of war crimes leveled against Saudi and Coalition armed 
forces and threats to end arms sales to the Saudis have the potential 
to inflict long-lasting damage to these relationships that go well 
beyond the scope of the Yemen conflict and could undermine the 
international community's determination to confront Iran's regional 
threats.
                      what is the situation today?
    In the spring of 2016, there was optimism in Washington and in the 
region that we were moving closer to an agreement on the outlines of a 
political deal. Regrettably, that optimism has faded despite a months-
long, U.N.-led negotiation in Kuwait, followed by desperate attempts by 
the international community to broker a ceasefire late in the year. 
Recent visits to the region by U.N. Secretary General Guttieres, 
accompanied by Special Envoy Ismail Ould Chaikh Ahmed, do not appear to 
have made progress toward a new peace initiative. Yet the fighting 
remains stalemated. The government, with its Coalition allies, is 
strengthening its hold on the southern part of the country, while the 
Houthi/Saleh forces are firmly in control of the North, including the 
capital, Sana'a, and reaching to the border of Saudi Arabia.
    Recent progress by the government in seizing control of the Red Sea 
coastal region, the Tihama, perhaps soon to include an assault on the 
key port of Hodeidah, will undoubtedly be a blow to the Houthis. But it 
is unlikely to bring a dramatic change to the course of the conflict. 
Indeed, the upsurge in Houthi missile strikes in Saudi Arabia is 
indication that they will continue their efforts to inflict damage on 
Saudi civilian targets in response to Coalition operations in Yemen. 
Indeed, as other elements of their military campaign falter, we can 
anticipate that the Houthis will turn increasingly to the one element 
of their strategy that has worked for them: strikes across the Saudi 
border and efforts to seize territory. The Saudis have yet to develop 
effective measures to counter these Houthi incursions.
          what are the challenges that we see on the horizon?
    One potential outcome of the current situation is the de facto re-
division of Yemen along the north-south border that existed until 
unification in 1990. While there are some who might welcome that 
prospect, it is fundamentally an outcome to be avoided, as it will mean 
two failed states in the southern Arabian Peninsula, each one incapable 
of providing adequately for its population and both becoming breeding 
grounds for violent extremist groups.
    But even should the prospect of a negotiation between the two main 
parties to the conflict improve, that success will not bring a short-
term resolution to the fighting and instability. In the long 
negotiations in 2011 between former President Ali Abdullah Saleh and 
his political opponents, Yemen's preeminent statesman and former prime 
minister, the late Abdul Karim al-Iryani, warned the parties 
continuously that an armed conflict in Yemen once started would not be 
easily stopped. His argument was that conflict would bring a resurgence 
of a tribal culture that prioritized clan honor, vengeance, and revenge 
over security and stability. That, indeed, appears to be happening as 
conflicts around the country, including around the besieged city of 
Taiz, increasingly take on the coloration of tribal vendettas and the 
resurrection of ancient rivalries rather than organized conflict 
between identifiable parties. Thus, even in the event that the parties 
agree on a political framework for governance in Sana'a, their capacity 
to bring a halt to the fighting in the countryside is going to be 
extremely limited.
    Moreover, the two Yemeni coalitions that are parties to the 
conflict are, themselves, internally fragile. The Houthi-Saleh 
alliance, in particular, is a marriage of convenience rather than a 
true partnership and is unlikely to survive in a political environment 
rather than an armed conflict. Long years of enmity between Saleh and 
his followers and the Houthis have been papered over, not resolved. And 
both sides have political aspirations that will be difficult to 
reconcile when it comes to a real political process. It has long been 
anticipated that the final act of the drama over political control in 
Sana'a will be a showdown between Saleh and the Houthis, and signs of 
tension between the two sides abound, including Houthi negotiations at 
the end of the year over a ceasefire agreement that did not include 
Saleh's representatives.
       a secondary beneficiary: al-qaeda in the arabian peninsula
    Al-Qaeda in the Arabian Peninsula (AQAP) has been a main 
beneficiary of the political conflict in the country. Having suffered a 
series of setbacks in the period 2012-14 as a result of focused 
coordination and cooperation between the U.S. and the Hadi government, 
AQAP has been able to reconstitute itself and regain much of the ground 
that it had lost. In particular, AQ has successfully positioned itself 
within the framework of tribal resistance to Houthi advances in the 
country, capitalizing on perceptions that the civil conflict is, in 
fact, a sectarian struggle between Sunni and Shi'a Yemenis. Although 
Yemenis are very conservative religiously, they are generally not drawn 
to al-Qaeda's ideology. Nevertheless, desperate times call for 
desperate measures, and many Yemenis, confronting existential threats 
to their social and economic survival, have aligned with al-Qaeda as a 
matter of self-preservation.
    Legitimately concerned by al-Qaeda's ability to resurrect its 
presence in Yemen and potentially pose new threats to global peace and 
security, the U.S. has resumed kinetic operations to deter and defeat 
the organization. Although U.S. motivation is understandable and 
justifiable, the additional layers of complexity that we now confront 
in Yemen argue for extreme caution in conducting military operations 
targeting AQ there. The fundamental reality that there is no purely 
military solution to the threat that AQ poses has not changed. Our 
objective of defeating and destroying violent extremism in Yemen is a 
long-term challenge and it requires that we take a long view on how to 
achieve it.
    Preserving the goodwill and cooperation of the Yemeni people is 
essential if we are to be successful, and there is no quicker way to 
lose that goodwill than through ill-considered military operations that 
generate high numbers of innocent civilian casualties. Thus, military 
operations should be limited to those instances where our intelligence 
is impeccable and we must maintain the standard of near certainty that 
there will be no collateral damage. President Hadi has been and remains 
a strong, reliable partner in the fight against al-Qaeda. Maintaining 
that relationship is a necessity. It will be particularly important in 
a post-conflict period where we will need to work with the Government 
of Yemen to re-build its security forces and renew our partnership in 
the fight against al-Qaeda. Finally, it is my experience that the 
Ambassador on the ground is a key player in maximizing the 
effectiveness of U.S. military operations, both as the main 
interlocutor with the government and as the U.S. official with the most 
accurate perspective on the impact these operations are having on the 
ground. The role of the Ambassador should be preserved.
                     conclusion and recommendations
    The conflict in Yemen has grown more complex and can no longer be 
characterized primarily as a clash between two rival coalitions 
fighting for political power in Sana'a. Indeed, the social, economic, 
and political structure of the country has been fractured and Yemen's 
ultimate survival as a unified country, which should be a principal 
objective of U.S. policy, is not assured. Under the circumstances, U.S. 
and international options to bring about a sustainable resolution of 
the conflict are limited. In my view, the U.S. should seek to achieve 
the following goals for 2017:

  <bullet> Support the Government and Saudi-led Coalition: UNSCR 2216 
        remains the basis for a resolution of the political conflict in 
        Yemen. While changes in the government may come about as a 
        result of political negotiations, they should not be determined 
        through force or violence. Moreover, it's important to 
        recognize that Saudi Arabia has legitimate concerns about the 
        potential for Iran to threaten its security should a pro-
        Iranian regime come to power in Sana'a. Given the fact that the 
        international community will depend on Saudi leadership to 
        undertake reconstruction and recovery in a post-conflict 
        environment, it is essential that the Saudis have confidence 
        that Yemen will remain a friendly neighbor.

  <bullet> Assist the Saudi-led Coalition in Bringing the Conflict to a 
        Successful Conclusion: Achieving an end to the fighting between 
        the Government of Yemen and the Houthi/Saleh insurgency is the 
        sine qua non of progress toward a political resolution. 
        Limitations on U.S. assistance to the Coalition, whether 
        through restrictions on the re-supply of munitions or denying 
        advice and assistance to Coalition armed forces is counter-
        productive. The U.S. should re-engage with the Saudi military 
        and political leadership to strengthen Saudi border security 
        and encourage a more careful, deliberative use of military 
        force in Yemen, with a single goal to force the Houthis and 
        pro-Saleh elements to negotiate a political resolution while 
        emphasizing avoiding collateral damage.

  <bullet> Coordination on the Capture of Hodeidah: The one exception 
        to opposition to offensive military actions would be a 
        government-led, Coalition-supported effort to re-claim control 
        of the Red Sea coastal city of Hodeidah and the road from 
        Hodeidah to Sana'a. Hodeidah is the principal port supplying 
        North Yemen. The U.S. should back Government/Coalition efforts 
        to capture the port in exchange for firm guarantees that the 
        Coalition will repair the damaged port facilities urgently and 
        provide unfettered access to the port for international 
        humanitarian organizations to bring in desperately needed food, 
        medicine, and other essential goods and distribute them 
        throughout the country without regard to political differences.

  <bullet> Press the Parties to Resume Political Negotiations: Despite 
        the challenges, the only path currently available to achieve a 
        political solution to the conflict is through the process being 
        managed by the U.N. and Special Envoy Ismail Ould Chaikh Ahmed. 
        There will not be a military conclusion to the Yemen conflict. 
        Only a political arrangement, within the framework of UNSCR 
        2216 but offering sufficient flexibility to draw in the 
        Houthis, can bring an end to the fighting and permit the re-
        establishment of some degree of governance in Sana'a. A 
        successful outcome to the negotiations would provide for the 
        restoration of security in Sana'a, allowing the government to 
        resume operation while negotiations continue, and providing for 
        the return of diplomatic missions to support and encourage the 
        government and people.

    If these efforts are successful over the course of this year, we 
should seek to accomplish these additional steps in 2018:

  <bullet> Establish a New, Time-limited Transitional Government: Based 
        on the successful conclusion of U.N.-led political 
        negotiations, the U.S. should support the establishment of a 
        new, credible interim government with a mandate limited to 
        implementation of the GCC transitional arrangement and the 
        conclusions of the National Dialogue Conference and charged 
        with conducting new parliamentary elections within 1 year. 
        During its limited tenure, the interim government can begin the 
        process of restoring security and stability, repairing damaged 
        infrastructure, and restarting economic activity.

  <bullet> Hold a Pledging Conference to Begin Discussion of 
        Reconstruction and Provide the Yemeni People with Confidence 
        that the International Community will Assist Them Moving 
        Forward: Yemen has suffered billions of dollars in damage to 
        its infrastructure and key economic capacity. It will be 
        important for the Yemeni people to know that the international 
        community is not abandoning them and that they will get the 
        support they need to reconstruct their lives. Beyond pledging 
        for reconstruction assistance, the international community can 
        provide essential assistance in institutional capacity 
        building, especially in ensuring that adequate schools and 
        health facilities will be available throughout the country. In 
        addition, GCC member states have suggested that they would 
        consider offering Yemen full membership in the organization . . 
        . it currently participates in a number of GCC specialized 
        committees but does not hold full membership . . . which would 
        be very well-received by the Yemeni population.

    Even with success in these tasks, Yemen's recovery will be long and 
the ultimate outcome not assured. But without these measures, Yemen's 
continued descent into complete social, political, and economic 
collapse is all but guaranteed.

    The Chairman. We thank you all for your testimony. We have 
5 minutes on the clock. I am going to reserve my time for 
interjection and turn to our ranking member.
    Senator Cardin. As I indicated in my opening statement, I 
have concerns about consequences of actions taken without a 
coordinated strategy that could escalate U.S. involvement that 
may not be constructive to accomplishing our objectives.
    So, Dr. Rand, I want to ask you first about the Port of 
Hodeidah and whether there is some interest as to whether there 
would be military action supported by the United States in 
regard to retaking that port. You seemed to indicate that that 
could be counterproductive.
    Because that may be something that is being considered, I 
would like to get your view on the consequences of that type of 
military operation.
    Dr. Rand. Sure. Thank you for the question. It is an 
important one. There are two answers to your question, Senator. 
One is the short term, and one is long term.
    In the short term, the fighting itself to reconquer, retake 
the port, will have significant damage in terms of humanitarian 
access. Remember, this is a commercial system where companies 
are sending ships into this port. If there is fighting, it will 
deter the flow of the companies who are sending the ships in. 
We have seen this before in the early days of the fighting.
    And, indeed, the State Department and the U.S. Government 
have worked very hard with the U.N., with UNVIM, to try to 
ensure the flow of passage of humanitarian goods into the Red 
Sea, et cetera.
    So in short the short term, the fighting itself will just 
make it difficult for the humanitarian access that is needed.
    Then there is the longer term question, which is just the 
huge risk. Let us say the coalition retakes the port area. It 
would have to quickly reestablish a scalable humanitarian 
system where it could distribute aid to the rest of the 
country, because that would be needed immediately. This is the 
lifeblood, as I mentioned, of the aid getting into the country. 
So we would be taking a significant risk on the coalition's 
ability to scale up its humanitarian capacity.
    And also, as I said, to ensure that the coalition, if it 
was retaken, did not use a strategy of punishing the north and 
Sana'a--remember, Sana'a would still be under Houthi control, 
and so it would require the coalition generosity to ensure food 
and aid transport.
    Senator Cardin. Thank you.
    Mr. Ambassador, I want to get your view as to how we change 
the equation. The only way we are going to be able to get a 
negotiated settlement on the civil war is to get the Houthis 
and the Saudis to be able to sit down and really negotiate the 
terms of a future for Yemen.
    How do we change the equations for the Houthis and for the 
Saudis so that becomes more of a reality?
    Ambassador Feierstein. Senator Cardin, a few things that I 
would like to say.
    One, I would take a little bit of issue with my colleague 
Dr. Rand on the issue of----
    Senator Cardin. You might want to use your microphone.
    Ambassador Feierstein. I would take a little bit of issue 
with Dr. Rand's comments on Hodeidah. I think, actually, if 
successful, a coalition victory in Hodeidah would not only 
facilitate the delivery of humanitarian assistance to what is 
75 percent or 80 percent of the population of Yemen in the 
northern part of the country, but it would also change the 
equation somewhat and increase the pressure on the Houthis and 
Ali Abdullah Saleh to agree to a political way forward.
    I do believe that we should support the United Nations 
efforts to resume. As you probably know, Secretary General----
    Senator Cardin. What will change the Houthis' equation? I 
mean, they have the support from Iran. They have geography. 
What changes their equation here so it is in their interest to 
sit down?
    Ambassador Feierstein. Several developments have occurred 
in recent weeks. One is that the coalition has succeeded in 
capturing the Port of Mocha farther south in the country, and 
it is increasing its control over the Tihama, the Red Sea 
coast, which has restricted the flow of weapons into the 
Houthis and Ali Abdullah Saleh, which was mostly coming across 
the Red Sea from Somalia, being smuggled in. And so there has 
been some limitation on the ability of the Houthis to maintain 
their military pressure and presence.
    I think that the key thing is to demonstrate, particularly 
to the Houthis, that, in fact, there is no military objective, 
there is no military end to this conflict, and that they are 
best to try to secure a negotiated settlement.
    Senator Cardin. Who is the best person? How do you convince 
them of that? They are not going to listen to the United 
States.
    Ambassador Feierstein. No, they are not.
    Senator Cardin. So how do we change the equation?
    Ambassador Feierstein. Well, I think that support for the 
United Nations--and, again, I think as we have all noted, 
including yourself, there was some optimism last year.
    In fact, there was a period last spring where people felt 
that there was movement on the political negotiations.
    Senator Cardin. Let me ask you one last question. How do we 
change our--how do we influence the Saudis to be more 
aggressive to pursue peace? We have a lot of engagement with 
the Saudis. We have leverage. We are their partners. We are 
their supporters. How do we use that to get more interest in a 
negotiated settlement?
    Ambassador Feierstein. First, I would say that, in terms of 
the premise of the question, my own experience, my own 
conversations with the Saudis, I do not think we need to do a 
lot to convince them.
    I think the Saudis would be desperate to get out of this 
conflict. It is costing them huge amounts of money. It is 
costing them tremendous reputational damage around the world. I 
do not think that there is any question that the Saudis would 
like to see an end to this conflict under the right set of 
circumstances. The right set of circumstances means that they 
have to be confident that there is a friendly government in 
Sana'a.
    We can achieve that through the United Nations 
negotiations, through an agreement on the basis of U.N. 
Security Council Resolution 2216, which would allow for a 
negotiation and the installation of a new interim government 
that would maintain that kind of balance.
    And I think that the other key point--there are two other 
key points. One is that we are going to all depend on the 
Saudis after this conflict is over to take the lead on the 
reconstruction of Yemen. Nobody else is going to do it except 
Saudi Arabia.
    And therefore, there is a strong argument to be made that 
we need to make sure that the outcome of this conflict is one 
that the Saudis believe defends or protects their vital 
national interests, the security of the border, and a friendly 
government in Sana'a.
    The second point is that, as I think several of my 
colleagues have mentioned, the nature of the conflict has 
metastasized. It is not simply a conflict anymore between the 
Houthis and Ali Abdullah Saleh on one side and the government 
and their coalition partners on the other side. It is, in fact, 
now a tribal conflict in many areas of the country.
    Al Qaeda has, as Mr. Joscelyn pointed out quite correctly, 
Al Qaeda has succeeded in putting roots down with tribes, not 
necessarily because the tribes share ideological views with Al 
Qaeda but simply because Al Qaeda is seen as a supporter of 
Sunni Arab, Sunni tribal interests versus the Zaidi Shia 
Houthis, and, therefore, that they are a source of support even 
if the tribal elements do not agree with global jihadist 
tendencies in Al Qaeda.
    So it has become a much more complicated conflict.
    Senator Cardin. Thank you.
    The Chairman. I would just ask, we have a vote at noon, and 
I know people are very interested in the hearing, so if we 
could have the time for the answer during the 5-minute period, 
that would be great too.
    Senator Paul.
    Senator Paul. Thank you, Mr. Chairman.
    And thank you to the panel for coming today.
    The United States has the technical ability to kill anyone, 
anywhere, anytime. But just because we can does not mean we 
should. And I think we do not have enough discussion about the 
practical ramifications of whether or not we kill more 
terrorists than we create.
    I think Yemen is a perfect example of this. We are 
supplying Saudis with bombs, refueling the planes, picking the 
targets. I assume that we did not pick the target of a funeral 
procession. But we wounded 500 people, and 140 people--I say 
``we.'' The Saudis did it, but with our armaments.
    You think the Yemenis do not know where the bombs are 
coming from?
    We recently had a raid--and I do not blame our soldiers. I 
mean, I have members of my family who actively serve. They do 
what they are told.
    But we are the policymakers. I mean, we sent them into 
Yemen. I still have not been told why we went to Yemen. Someone 
has to make a decision.
    Did we, in killing a few of the Al Qaeda in that village, 
was that worth the fact we had to kill women and children, or 
women and children were inadvertently killed in that, including 
an American citizen?
    So I guess my question to Dr. Rand is, do you think we are 
adequately weighing whether we are creating more terrorists 
than we kill, whether we are doing more good than we are doing 
harm, whether we are safer or more at risk?
    I think your testimony was at least reasoned in the sense 
that, will we be better off? Yes, we can take a new port in 
Yemen. We can do anything. But in the end, will we be safer or 
better off if we continue the way we are continuing?
    Thank you.
    Dr. Rand. Thank you, Senator. Let me address two parts of 
that question. It is an excellent question.
    On the issue of the CT raids, look, kinetic strikes are the 
way that this previous administration has fought the CT threat. 
The issue, as the Ambassador mentioned, is the national 
security process that adjudicates and assesses and analyzes the 
costs, so the reputational costs, the public opinion costs, the 
policy costs, brings in the State Department, brings in the 
experts to really look through the military plan.
    So this sounds really wonky and bureaucratic, but it is 
really important that, for this type of CT process, there is a 
real bureaucratic process in place. And I think that addresses 
some of the risks and tradeoffs you mentioned on the CT side.
    On the Houthi side, you are absolutely right. You know, in 
IHL issues, international humanitarian law, there are strikes 
that can be lawful in the sense that they are proportionate and 
discriminate, but they are not wise.
    And that is something that our targeters in Afghanistan 
learned when they were fighting a counterinsurgency. Generals 
McChrystal, Petraeus, et cetera, they learned that, in fighting 
insurgents, you need to pick your targets really carefully, 
because you are focusing on the hearts and minds.
    Senator Paul. And I would like to follow up really quickly 
with one additional question.
    There are those who argue that, in Syria, by getting 
involved in a Syrian civil war and pushing back Assad, that 
there was a vacuum created, and the vacuum was filled by ISIS. 
There are some who argue that the same could happen in Yemen. 
By getting involved in a civil war where we push one side or 
the other, that a vacuum will occur. And within that vacuum, Al 
Qaeda may be strong enough to fill that vacuum.
    Do you think we are adequately, Dr. Rand, assessing the 
potential that we are doing more harm than good by being 
involved in a civil war?
    And then for some reason, it was said that the person that 
was the target in the Yemeni raid was actually fighting against 
the Houthis, so not really our ally but also he was fighting 
the common enemy. Are we really adequately understanding that, 
out of this mayhem, that perhaps Al Qaeda grows stronger?
    Dr. Rand. Exactly. That is exactly the point. There are 
these two discrete battlefields. There is our fight against Al 
Qaeda, and our partners are joining us in the fight. And then 
there is the internal Yemeni conflict.
    The problem is, if you are in Yemen on the ground, you 
cannot differentiate always, and it is easy, as I said in my 
testimony, my written testimony, just to blame America. You 
know America is involved.
    And so, in both cases, this is adding fuel to the fire. 
That is why I respectfully disagree with my colleague about the 
value of a new offensive.
    We have already tried for 2 years a strategy of offensives 
to retake areas to allow for the political dynamics to change. 
And there are significant costs to our relationships, to the 
civilians of Yemen, to our reputation. We have tried that 
approach for 2 years, and I just do not believe that the risks 
are worth it anymore.
    Thank you.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    Al Qaeda in Yemen has been described to me as the biggest 
threat to the American homeland that exists right now.
    Do you all agree with that?
    Mr. Joscelyn. I think it is part of a big threat from Al 
Qaeda to the U.S. homeland. It is not the only part of Al 
Qaeda. It is integrated into Al Qaeda's external operations, 
which cut across several different countries.
    Senator Shaheen. And you would see it as a bigger threat 
than ISIS?
    Mr. Joscelyn. I think, the way I put this, Senator, not to 
be too crude, ISIS is the one that wants to basically stab you 
in the front. Al Qaeda is the one that wants to stab you in the 
back. And what they are doing in Yemen, and what they have been 
doing across several countries, is laying plans for possible 
attack in the U.S. or elsewhere against Americans.
    Senator Shaheen. Dr. Rand, do you agree?
    Dr. Rand. Between Al Qaeda in the Arabian Peninsula and 
ISIS, the question is, are there American citizens on our 
homeland that are their highest priority target? And we know 
that Al Qaeda in the Arabian Peninsula is trying to target 
Americans, so I would have to say yes.
    Senator Shaheen. Ambassador.
    Ambassador Feierstein. I would say that, at this particular 
juncture, Al Qaeda in the Arabian Peninsula is not in a 
position to launch global attacks. They are not in a position 
to strike at the United States.
    The last time Al Qaeda in the Arabian Peninsula attempted 
that was in 2010 with the cartridge bomb effort. Since then, 
they have not been able to re-create themselves, resurrect 
themselves.
    I think that they have that ambition, but as long as a 
conflict is going on, the ability to actually do that, I think, 
is limited.
    Senator Shaheen. But my understanding is that the cartridge 
bomber responsible for that bombing attempt is still there and 
he has not been eliminated.
    Ambassador Feierstein. Yes. Mr. Asiri, who is the bombmaker 
for AQAP, as far as we know, is still in Yemen.
    Senator Shaheen. Given that, it is hard for me to 
understand how we can address that threat, if we are not 
fighting back against Al Qaeda where it exists.
    Ambassador Feierstein. I absolutely agree. I think that we 
need to, but, again, within a context.
    The thing that I think is most important is that the Yemeni 
people understand who is Al Qaeda and they understand who is 
not Al Qaeda.
    As long as they see that the targets that we are hitting 
are Al Qaeda, that the people that we are going after are 
legitimate Al Qaeda targets, I do not think that we have a big 
problem with the Yemeni populace. I think that they are 
supportive.
    Where we get into trouble is when we are the source of 
collateral damage. And I agree entirely with Dr. Rand that this 
is where the issue is and why it is so important that we be 
careful about identifying targets and making sure, before we go 
after a target, that we can do it without causing unnecessary 
collateral damage.
    Senator Shaheen. Thank you.
    Are we seeing any evidence of Russian engagement in Yemen?
    Ambassador Feierstein. Historically, the Russians have been 
good partners for us in Yemen. They were very much involved in 
the effort in 2011 and 2012 to advance the political transition 
plan. They continue to support the U.N. process. Of course, 
they voted in favor of U.N. Security Council Resolution 2216.
    They kept their embassy open in Sana'a, unlike the United 
States, and they continue to be engaged.
    I think that they are somewhat more supportive of Iran and 
of some of the things that are going on these days than we are. 
But on the other hand, they are still supporting the political 
process.
    Senator Shaheen. Anybody disagree with that?
    And given Iran's support for the Houthis, is there any 
reason to think they are going to be interested in seeing a 
peace negotiation anytime soon? Anybody?
    Ambassador Feierstein. For Iran, this is still a cheap win 
for them. So unless the larger regional dynamic changes, they 
really have no particular interest in seeing an end to the 
fighting in Yemen.
    The issue is whether, for regional reasons, they decide 
that they would like to improve their relationship. We have 
seen, over the last few weeks, President Rouhani has traveled 
through the gulf. The Foreign Minister of Kuwait has visited 
Tehran. So there is some indication that perhaps they would 
like to see a change in the nature of their relationship with 
the region, perhaps as a way of diffusing U.S. pressure. And 
that could change. But otherwise, I do not see reason for them 
to change.
    Senator Shaheen. So should we be providing weapons to the 
Saudis that allow them to better target their raids in Yemen? 
Again, anybody.
    Ambassador Feierstein. I would say, from my perspective, 
absolutely.
    I do not understand why, if you are concerned about Saudi 
actions causing collateral damage, you would limit the ability 
of them to acquire the kinds of weapons that would limit 
collateral damage and would allow them to be more accurate.
    Dr. Rand. Sorry, I think I would disagree on that.
    The Obama administration oversaw the transfer of $110 
billion worth of FMS. Saudi Arabia is the largest recipient of 
FMS sales in the world right now, thanks in large part to the 
Obama administration support for this ally.
    In 2015, the U.S. Government offered technical training on 
cyber, ballistic missiles, border security, counterterrorism, 
and maritime security. The U.S. Government has been an 
incredibly good and supportive partner to Saudi Arabia.
    Senator Shaheen. I agree, but they have not allowed for the 
transfer of weapons that would allow them to better target what 
they are trying to hit.
    Dr. Rand. The precision guided munitions were transferred 
in 2015 on the hopes that, indeed, as you are saying, Senator, 
they would enable better and more precise targeting by the 
coalition of the targets itself. That was the theory. That was 
the argument.
    The State Department, our teams, came here and told your 
staff that in 2015, that the precision guided munitions in 2015 
would help their targeting. You agreed, after some discussion.
    The Chairman. Without giving a history, just give an 
answer, if you would.
    Dr. Rand. Sure. What we have seen since is not an 
improvement in the targeting, and the issue itself is the 
target selection. It is not the precision of the target itself, 
but it is the choice of targets and adherence to no-strike 
list.
    Thank you.
    The Chairman. I would disagree with that assessment, but 
everybody has their own opinions.
    Senator Risch.
    Senator Risch. Thank you.
    As we sit here--first of all, all of you have been very 
good, I think, as far as describing the problem there. Most of 
us, I think, are aware of that.
    The view is very pessimistic. I mean, I have not heard any 
of you talk about a quick resolution to this or even a path 
toward certainty in getting the thing resolved. I am certainly 
not chiding you for that. I mean, this is difficult.
    The parallels here to Syria are really pretty striking. You 
have a government that failed, to a certain degree. And you 
have warring factions, basically two overall.
    But that really does not tell the whole story, because 
there are so many of these underlying conflicts involving the 
tribes, and involving other foreign nations involving 
themselves in this fight, and all have their own reasons and 
their own purposes. And so the parallels to Syria are, to me, 
very, very close.
    In that regard, the solution, whatever that might be, also 
is a parallel. But, Ms. Rand, with all due respect to your 
description of it, your description is a description that would 
fit in a perfect world. And, you know, you slap them alongside 
the head, sit down at the table, resolve your differences, and 
let us get on with life. And that kind of falls in with what we 
as Americans always do, and that is try to think about 
resolution the way we would think about resolution, and they 
are not there.
    A good example of that is the Iranians. I mean, the 
Iranians could bring this thing to a screeching halt pretty 
quickly if they pulled the carpet out from under the Houthis, 
not completely, but it would certainly weaken the Houthis 
tremendously if they were not provided weapons.
    But is there anybody in this room that thinks the Iranians 
are interested in resolving this? I mean, this is perfect for 
them. You know, they are able to fight this proxy sort of war 
with us and with the West, and do it pretty cheaply, as has 
been indicated here.
    So I do not know. Number one, I am very pessimistic about 
it. Number two, I have not heard anything that talks about 
really a practical solution to this. And, unfortunately, the 
thinking about it makes you come to the conclusion that this is 
a Rubik's Cube that is missing some parts and really cannot be 
resolved, just like the situation we have in Syria.
    So, Mr. Joscelyn, I am going to let you comment on that 
first.
    Mr. Joscelyn. Well, you know, there are actually--Senator, 
I agree with a lot of what you just said. And to Senator 
Cardin's point earlier, he was asking for sort of creative 
solutions to the conflict, there are two things on the Houthi 
side that have to be understood.
    It is not just Iran that is backing the Houthis, but also 
President Saleh's network in Yemen that plays a key role in 
this. In 2014, he was designated by the U.S. Treasury 
Department for his support for the Houthis. In 2015, his son, a 
former high-ranking military official in the Yemen military, 
was designated by the U.S. Treasury Department as a key sort of 
force multiplier for the Houthis. They bring with them a tribal 
infrastructure within Yemen that is playing a big role here.
    Now what you have to understand is that he is not a natural 
ally necessarily to the Houthis. He and his forces fought them 
in the past. And there is possibly, I do not know, I am not 
making a prognostication here, but if you want a creative sort 
of idea to maybe start trying to unwind this whole thing, he 
does not want to necessarily serve Iran's agenda in Yemen. His 
objectives are not necessarily in lockstep with Iran and what 
they want to do. He wants power inside Yemen. He wants his 
family to have power inside Yemen.
    To start a diplomatic initiative or other talks to maybe 
start peeling him away from the Houthi insurgency or to sort of 
recognize that you are not going to end his interests 
overnight, I am not saying that is easy. I do not even know if 
it could be done. But at least it is a creative start to this, 
instead of just seeing the Houthis as solely sort of dependent 
on Iran.
    Senator Risch. But if you resolve it without him, he is not 
going away.
    Mr. Joscelyn. Right, that is my point.
    Senator Risch. And that does not resolve the conflict.
    Ms. Rand, 30 seconds.
    Dr. Rand. I would agree. You know, look, the intransigence 
is coming from both sides.
    In fact, the proxies probably are more flexible. The Saudi 
Arabian Government, as the Ambassador said, is probably willing 
to make a deal and to compromise. The Government of Yemen has 
shown some intransigence, and the President's forces, President 
Saleh.
    I think there is room for trade space. I think, in the last 
6 months, there have been really good back-channel efforts that 
came really close. There was a step-for-step approach that 
Secretary Kerry used that was very promising, that moved beyond 
the 2261 formula.
    So there are creative efforts that have been underway. And 
the cessation of hostilities for 3 months really was an effort 
at real negotiations and did mitigate the violence in a way 
that served U.S. interests.
    Senator Risch. My time is up. Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, for calling 
another important hearing.
    Once again, I just want to echo that I appreciate the 
expertise of this panel. And out of safety for our diplomats 
abroad, we do not have an operational Embassy in Yemen because, 
obviously, the risk, in which our Foreign Service and 
diplomatic professionals would have to work.
    However, while we do not have an Embassy, they can 
communicate and execute American foreign policy, but they need 
a policy to execute. And as we increase military operations in 
Yemen, it seems to me that we must insist upon policy 
leadership from the State Department.
    Airstrikes are not a policy. Intelligence-gathering 
operations are not a policy.
    Al Qaeda in the Arabian Peninsula remains one of the most 
dangerous terrorist offshoots of Al Qaeda. And whatever the 
scope of its intentions, Iranian support for terrorist networks 
is achieving, at the very least, an objective of continuing 
destabilization of the Arabian Peninsula.
    Now this committee is tasked with overseeing the 
administration's foreign policy agenda, the objectives it makes 
to accomplish that objective and that agenda, and the execution 
of those objectives. So as much as I respect and admire the men 
and women serving in these operations and the civilian leaders 
that are ordering them, we cannot cede foreign policy decision-
making to the Department of Defense or the Intelligence 
Community. And the sooner that we get there, the better off we 
will be.
    However, with that in mind, I do want to take advantage of 
your expertise. I know that you have talked somewhat about Iran 
here. I would like to--in essence, I heard differing views.
    What is Iran's endgame as it relates to Yemen? We know that 
Iran has transferred sophisticated weapons, provided some 
support to Houthi fighters. Many experts say that the Iran-
Houthi relationship is not the same as the Lebanese Hezbollah, 
Assad in Syria, or Shia militias in Iraq.
    But what are the end goals of Iran in Yemen? Could any of 
you speak to that?
    Ambassador Feierstein. I would have to say that, from our 
experience, what Iran would see as a good outcome would be 
either a government in Sana'a that was friendly to them and 
provided them with opportunities to bring in people, to bring 
in more weapons to challenge Saudi security, or, at the very 
least, a continuation of the instability in Yemen that allows 
for them to continue to undermine Saudi security and to pose 
threats to the border region.
    I think that one of the things that we have seen over the 
course of this conflict, and especially in recent months, is 
that the Houthis have focused a lot of their energy and effort 
on launching missiles inside Saudi Arabia--the missiles that 
they are being provided by the Iranians now are longer range 
and more threatening to Saudi populations--and also to cross 
the border and seize territory in ways that are difficult for 
the Saudis to respond.
    So I would think that, for the Iranians, a continuation of 
that, if not absolutely an improvement, would be a real 
objective.
    Senator Menendez. So a general distraction that distracts 
gulf countries' attentions from other objectives then?
    Ambassador Feierstein. And threatens Saudi Arabia. I think, 
from a Saudi perspective, what they see is a pattern of Iran 
trying to establish an encirclement of the Arabian Peninsula, 
so not only in Yemen but in Bahrain, in Syria, in Iraq, in 
Gaza. Initially, they made an effort to establish in Sudan.
    So a whole range of friendly governments that, together, 
can be a threat to the security of the peninsula.
    Senator Menendez. Any other views? Dr. Rand?
    Dr. Rand. I would agree that that is sort of the endgame. I 
would note that the defeat of the Houthis, per se, through an 
offensive or otherwise, would not be as hard of a blow to Iran 
as, for example, a loss of power by Hezbollah, the KH in Iraq, 
other groups that you mentioned. They are less core to Iranian 
national security.
    So the flipside of what you said is also that the defeat of 
it is less central. It would not really knock them down in 
their regional ambitions in the same way. In fact, the concern 
that I have had in the past couple weeks is the new 
administration's support for Hezbollah in Syria that is doing 
the actual fighting on behalf of the regime in Damascus. That 
really empowers Iran because Hezbollah is really on the 
frontlines. Hezbollah and IRGC re-took Aleppo, essentially, and 
that has given them a certain amount of prestige in the Sunni-
Shia confrontation.
    So I am watching that as more of a concern, in terms of 
Iran's regional growing prestige in the region.
    Senator Menendez. One last question. The flipside of that, 
what is the endgame for the Saudis?
    Ambassador Feierstein. I think the endgame for the Saudis 
is a friendly government in Sana'a, and one that, again, can 
work with them to ensure security of the border region, push 
back against the Iranians.
    And also I think, increasingly, as this conflict has gone 
along, we have seen both among the Saudis and the Emiratis a 
new appreciation of the threat of violent extremism, of AQAP, 
and a greater willingness on their part to really partner with 
us in effective ways to contest it.
    The Chairman. I want to respond to your opening comment, 
not to counter it in any way.
    We do need people in positions here, and, hopefully, they 
will be filled soon. I would just add, though, that I met this 
morning with our National Security Advisor and talked to 
General Mattis yesterday. And I think you know I spent some 
time with Tillerson last week.
    I actually think we have an opportunity as a committee that 
I do not think has existed for a decade, not since I have been 
here, where we have an opportunity to develop with them a 
longer term strategy as it relates to the Middle East and other 
issues that has not existed. So I do not get the sense at all 
that the State Department, these things that you are reading 
about--Tillerson has dinner with the President every week, 
talks to him multiple times each day.
    I think what you are seeing instead is Mattis and Tillerson 
having a commitment that nothing comes to the National Security 
Council without them both agreeing in advance before it occurs.
    So anyone who may fear that we are exporting foreign policy 
to the Defense Department, I do not see that happening at all. 
It is my goal to ensure that that does not happen.
    And it is also my goal that this committee, Republicans and 
Democrats, are intertwined in this policy developing like we 
have never seen before, since most of us have been here. I 
believe that is going to be the case.
    And I do not see that to counter what you are saying.
    Senator Menendez. No.
    The Chairman. I think we have a tremendous opportunity with 
people who are new to this who are reaching out in developing 
their policies.
    Senator Menendez. Mr. Chairman, may I just respond, since 
it was in response to my comments?
    Let me just say that I appreciate that you are speaking to 
the NSC and to the Secretary. The problem is--and I appreciate 
the possibility of the committee playing an even more 
significant role.
    The problem is that, for those of us who do not have 
necessarily that line of communication, this whole other level 
of individuals would provide a basis for which that engagement 
could take place. And it is only in that sense, I think I want 
to echo the ranking member's comments, that, generally, unless 
we have a flamethrower, we have been pretty bipartisan in 
moving out nominations in this committee.
    So I am just hoping for that moment, so we can have a 
greater opportunity.
    The Chairman. I could not agree more. I am in no way 
dissuading that thought. I could not agree more.
    Senator Rubio.
    Senator Rubio. That is a great conversation. Actually, it 
is part of a broader situation that involves Yemen, and that is 
my hope that the National Security Council will move back to 
its original role, which is to be kind of an internal think 
tank that develops strategic views of every region in the 
world, and then, you know, it is the State Department, in 
consultation with the State Department, the Department of 
Defense and others, to carry out the appropriate strategy but 
also the tactics.
    So many of our debates in this committee, so many of our 
debates in Washington, have been tactical. Airstrike or no 
airstrike? Arm or do not arm? But sometimes we feel like it is 
not in the furtherance of a strategy.
    So this is an important part of that. This conversation, I 
think, calls that to light. You know, what is our strategy with 
regards to Yemen? And I think that should be driven by our 
national interests, which I do not think anybody on the panel 
would disagree are twofold.
    One is the counterterrorism aspect of it. From everything I 
have seen, and testified here today, Al Qaeda in Yemen is the 
new Fatah in many ways. It is now the core area where you see 
Al Qaeda actually being able to prosper, create anchor, and 
establish. And they have deep links to Yemen that go back a 
tremendous amount of time, and they take advantage of an 
ungoverned space.
    So that is first and foremost. We do not want Yemen to be 
an ungoverned space, because ungoverned space is the breeding 
ground for Al Qaeda and ISIS before them.
    And while it seems that Al Qaeda has historically been very 
patient in pursuing the sort of state functions that ISIS 
immediately embraced, they have had ambitions to do that, and 
Yemen sounds like a pretty good place for them to try to do it.
    In fact, they did try to do it until very recently and have 
proven to be enduring in their desire to, at some point, peel 
back and reconstitute at the appropriate time.
    So that is our first interest. And the other, which we 
should not ignore, is the question that Senator Menendez has 
asked, and I know a lot of people at have asked, and that is, 
what is the Iranian intention in the region?
    So there is all this discussion about, are the Houthis 
under the command-and-control of the Iranians? I would not 
judge whether or not they are a proxy simply by whether they 
are command-and-control, because I would argue that, over the 
last 5 years, Hezbollah's relationship with Iran has 
strengthened and grown as a result of functionality. The more 
capable they have proven in Syria and other places, the 
stronger that link has become.
    But this is the Iranian strategy. They are not going to 
build 10 aircraft carriers to try to match us. They are going 
to seek asymmetrical ways to influence the region and pursue 
their ambitions. Some of it may be through someone they are 
very closely linked with. Others may be through these entities 
that they use as second proxies.
    But in the case of the Houthis, I do not think there is any 
debate that they are receiving a substantial amount of 
assistance from the Iranians and that the level of assistance 
immediately correlates into actions. In essence, the lethality 
and the volume of attack that they have undertaken is in line 
with the amount of support that they have received.
    And we have seen open-source reporting on IRGC officials 
being captured and killed. They are there. They are on the 
ground in the furtherance of this strategy.
    So as I hear all this conversation about a negotiated 
settlement, I do not think that, in the Iranian view of the 
world--a negotiated power-sharing agreement sounds really good 
in the halls of Western diplomatic conversation. But in Iranian 
geopolitical views, they would probably prefer the situation 
that is there now than they would any sort of power-sharing.
    They are not involved in this because they are concerned 
about ethnic minorities not having a voice in government. They 
are involved because they see the opportunity to create a 
beachhead of influence neighboring on the periphery of who they 
view as their strategic rival for dominance in the region. And 
they want this to be protracted.
    And even if you could find a bunch of people among the 
Houthis that are willing to be involved in some power-sharing, 
Iran will always be able to find some element in Yemen willing 
to accept weapons, because it is tempting to have that level of 
power. In some parts of the world, the more weapons you have, 
the more powerful and influential you become.
    And that is why I am not against diplomacy. I think 
diplomacy is important. And I think if we can figure out a 
negotiated settlement that brings this to a peaceful 
conclusion, we should pursue it.
    I just hope we do not put too many eggs in that basket 
because the people that are fueling this on the Iranian side 
are not that big on negotiated diplomatic Western European 
models of diplomacy. They view this as a geopolitical 
opportunity to destabilize the region for purposes of being 
able to leverage Saudi Arabia and the United States as a base 
of operation.
    And if it happens to have the side effect of Al Qaeda 
building, well, that is an additional thing that they think is 
great in terms of sapping our resources.
    So I just said a lot of different things about this whole 
dynamic, because I think it is important that we start talking 
about, as the chairman just said, the sort of strategic view 
that they are trying to undertake in consultation with the 
State Department and Defense and everybody else.
    We debate a lot about tactics.
    The Chairman. We do.
    Senator Rubio. But if tactics are not driven by strategy, 
then they are not nearly as effective, and we kind of have to 
start and stop.
    By the way, it helps with our allies.
    In the minute I have left, the question is this. 
Irrespective of what we may think about what the ideal solution 
is, which is this big peace treaty where everybody sits down 
and shakes hands, they have a government and everybody is happy 
with it, the Saudis are going to pursue their national 
interests with or without us. And their national interest, in 
their mind, is ensuring that there is not an Iranian influence 
of any sort on their periphery.
    And, therefore, my question is this. Irrespective of what 
we do, the Saudis are going to continue to do what they believe 
is in their national interests, with or without our guidance, 
in terms of carrying out the military components of this. Am I 
wrong in saying that?
    Ambassador Feierstein. No, sir. You are 100 percent 
correct----
    Senator Rubio. Those are my favorite answers, when people 
say that.
    Ambassador Feierstein. ----in all of your comments.
    The one thing I would say, of course, is that, as you 
looked at the counterterrorism priority that the United States 
has, and as you look at the reality of the geopolitical 
situation, these two things are in conflict.
    Our interests, and the Saudi interest, is in enforcing a 
resolution, a political resolution, to this conflict that 
allows you to have a government in Sana'a that can partner with 
us effectively and begin to push back on the CT threat.
    Senator Rubio. But also on the Iranian efforts.
    Ambassador Feierstein. Absolutely.
    The Chairman. Thank you both.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker. I would like to 
the thank the chairman and ranking member, and the panel, for 
this important hearing.
    And I am going to simply try to extend the conversation 
that you were just having with Senator Rubio, who I think 
correctly perceives what is Iran's goal here, which is a 
relatively low-risk, low-cost to them opportunity to continue 
to harass and provide pressure on the kingdom and to 
destabilize the region.
    Let me just move to a related question that was touched on 
but that I would like to better understand. We have a 
significant humanitarian crisis here. You have nearly 7 million 
Yemenis in need of immediate food aid, and nearly half a 
million children, according to UNICEF, suffering from acute 
malnutrition.
    What have we accomplished with our humanitarian aid so far? 
And what would cuts in our contributions to the United Nations 
and to USAID funding do in terms of its impact on the course of 
all the need for humanitarian assistance?
    And is there a way that our humanitarian assistance, either 
through the U.N., or directly or indirectly the World Food 
Program, can contribute to our strategic objective, which is, 
frankly, to dull the influence of Iran, to provide some space 
between Iran and the Houthis, and to achieve some sort of 
reconciliation or stability in Yemen?
    Dr. Rand. Thank you, Senator, for a good question.
    Our humanitarian assistance has been very, very important, 
combined with our diplomatic efforts multilaterally with many, 
many partners who contributed. I mentioned UNVIM, which is the 
U.N. mechanism that is allowing the aid to dispersed. It is 
very complicated. It is a battlefield, you know. And it has 
helped the aid organizations distribute.
    So the U.N. has been a critical partner and has helped 
essentially, so we could not do this without the United 
Nations, to answer your question.
    In terms of using aid and assistance to drive a wedge, the 
hearts and minds of the Yemenis are being shaped by the 
airstrikes, to some extent. So, you know, they are angry 
because they see sorties overhead that are dropping bombs on 
their communities for whatever reason. And this is particularly 
true in the Houthi-controlled area.
    So I do not necessarily believe that absent the end to the 
airstrikes, just a strategy focused on aid alone would win the 
hearts and minds, and bring back the views and the political 
sentiments of those in the north and the west of the country, 
or Sana'a, to change their minds.
    Senator Coons. Ambassador.
    Ambassador Feierstein. I think I would disagree a little 
bit with that.
    I think that, again, not to beat a dead horse too much, but 
if we can get Hodeidah operating again--there has been a great 
deal of damage to the port. The ability to bring humanitarian 
goods into the port has been limited because of damage from 
airstrikes.
    If we can get the port functioning 100 percent and be able 
to deliver humanitarian assistance, the United States is the 
number one supporter of United Nations humanitarian assistance. 
It is incredibly important.
    Based on my own experience, I would be a little bit 
cautious about assuming what Yemenis think or how upset or 
angry they are about things--I think Yemenis are pragmatic and 
practical people, and that if we can begin to address the 
humanitarian crisis, that we could make important steps toward 
creating an environment that is conducive to a longer term, 
sustainable political solution.
    Senator Coons. Thank you.
    If I could just ask Mr. Joscelyn the last question. About 
the connection between the Houthis and Iranian control or 
direction, do you think the American response to Houthi attacks 
on the USS Mason in October of last year were sufficient to 
deter future attacks of that type? And what role does Iran play 
in directing the Houthis to launch maritime attacks off the Red 
Sea coast?
    Mr. Joscelyn. You know, it is a great question. There is 
not a lot of specific intelligence on how much direction 
Iranians are actually giving the Houthis. There is a lot of 
evidence on the output side, sort of what we can see, weapon 
shipments and that sort of thing.
    My main concern about the relationship is that the Iranians 
will try to procure assets within the Houthis, who became more 
friendly to them over time. Again, they are not a Hezbollah 
type situation where they are a directly owned proxy of the 
Iranians. But the Iranians are using this conflict to probably 
convert people within the Houthi world to basically their cause 
in the long run.
    I do not know how much direction they did or did not give 
to these specific attacks on the ships.
    In terms of being sufficient, since we have seen attacks on 
other ships since then, it has not dissuaded them from 
attacking other ships, including from other countries.
    Senator Coons. What more could we be doing to effectively 
intercept or deter weapons shipments or transfers from Iran or 
from Iranian agents to the Houthis?
    Mr. Joscelyn. The bottom line is that, if you look back 
through all the reporting, the U.S., Australia, France, there 
have been numerous ships sort of intercepted by the sort of 
world community going into Yemen.
    The only part of the game, I mean, I think there is already 
a massive effort to do that in sort of the sea shipping lanes. 
The key is going to be on the ground, in terms of where the 
weapons go once they get in, because you are not going to stop 
all the shipments, and we have not stopped all the shipments. 
And again, without sort of building up capacity, governance 
capacity within Yemen to actually stop that, there is no way to 
get at it.
    Senator Coons. Thank you very much.
    Senator Risch. [Presiding.] Senator Young.
    Senator Young. Thank you.
    I thank our panel for your compelling testimony. I want to 
pick up where Mr. Coons began, which is the humanitarian 
crisis.
    Mr. Feierstein, you cite some really sobering numbers from 
the United Nations Office for the Coordination of Humanitarian 
Affairs. They reported over 3 million of Yemen's 27.5 million 
citizens have been internally displaced by the conflict. Over 
half the population is considered food insecure. And you warn 
that famine and epidemics of disease may be on the near 
horizon.
    Dr. Rand, I think you cited the U.N. assistance and how 
critical it is. In fact, a tweet came out from UNICEF within 
the last 30 minutes indicating that 5 million children were 
vaccinated against polio in their door-to-door campaign, so 
more children have actually died from preventable diseases than 
those killed in the violence.
    In addition to the political conversations that we will 
need to continue to move forward to bring this conflict to an 
end, on the humanitarian end, what more might be done by USAID, 
by State, or by our multilateral institutions to create an 
environment where those negotiations just might be more 
effective?
    Dr. Rand. Thank you, Senator. That is a great question.
    Again, it is the access that is the key issue. 
Unfortunately, in parts of this conflict, particularly in the 
first year or so, the access by the humanitarian organizations 
to the ground--that is what I am talking about.
    Senator Young. So you are talking about Hodeidah.
    Dr. Rand. Hodeidah into the country----
    Senator Young. Right.
    Dr. Rand. ----and the distribution networks.
    Senator Young. Right.
    Dr. Rand. It was highly politicized, in the sense that the 
different combatants were politicizing aid against 
international norms. Humanitarian is supposed to be apolitical, 
as everyone else.
    So the really important part here is that all the parties 
to the conflict agree to a very objective, nonpolitical 
distribution system. And that is why I am less sanguine about 
an offensive in Hodeidah, because the short term would be very 
dramatically dissuading of the humanitarian organizations to 
come in. In the long term, you are betting on a----
    Senator Young. So as a quick follow-up, is force or the 
credible threat of force necessary to change the dynamic and 
create access?
    Dr. Rand. I do not think you need credible threat, because, 
again, it is commercial assistance. What you need is confidence 
from the shippers that they cannot get into Hodeidah and 
offload their goods.
    Senator Young. But they lack confidence, so how do we 
change that dynamic absent more leverage created, to my mind, 
by a credible threat of force or some other means? Perhaps you 
have other instruments. Any of you can speak to this.
    Dr. Rand. The situation has improved greatly in the past 
year----
    Senator Young. Right.
    Dr. Rand. ----compared to the first year of the conflict, 
so the trend is upward. So what I am worried about is a new 
round of fighting.
    Senator Young. Okay.
    Mr. Joscelyn. Yes, I would just say, again, Hodeidah was 
damaged. All of the gantry cranes that operate in the port were 
damaged in airstrikes. Gantry cranes are pre-positioned in the 
region.
    If the port were in the hands of the government and the 
coalition, there should be, as part of any initiative, as part 
of any U.S. support or advice and support of a Hodeidah 
operation, there should be a clear understanding that the 
urgency and the most immediate decision after success would be 
bringing in the new gantry cranes, getting the port operating 
at 100 percent of its capacity--it is not right now--with also 
the understanding that the coalition would support the 
reestablishment of the distribution networks. I agree with 
Dafna on that point.
    Senator Young. If I could interject, it sounds as though 
putting forward a coherent plan----
    Mr. Joscelyn. Absolutely.
    Senator Young. ----as to the support that will be 
forthcoming could well be enough to create confidence and 
improve the situation. Is that correct?
    Mr. Joscelyn. I think that is absolutely correct.
    Senator Young. Dr. Rand.
    Dr. Rand. I disagree because the actual fighting could take 
out some of the necessary infrastructure.
    Senator Young. Yes.
    Dr. Rand. So you could be set back by months. Really, the 
actual dropping of the bombs could take out some of these 
cranes and some of this infrastructure, to make it really 
impossible.
    Senator Young. Okay. If you have any supplementary 
comments, please--I will actually seek those in writing.
    A shout-out to UNICEF. We criticize the U.N., I think 
appropriately in a number of occasions. There are doing some 
good work over there.
    Very briefly, Mr. Joscelyn, with frequent respect to AQAP 
funding, you mentioned their fundraising apparatus. You cite 
their fundraising from gulf countries.
    Could you speak fairly quickly to the source of that 
funding, private versus governmental? And more importantly, if 
you have any thoughts on specifically what more might be done 
to staunch the flow of funds to AQAP, please advise.
    Mr. Joscelyn. Well, AQAP has basically evolved sort of 
multiple sources of funding when they controlled much of 
southern Yemen from April 2015 to April 2016. They even 
collected upwards of $1 million to $2 million a day in taxes in 
the Port of Mukalla, according to press reports anyway. They 
have numerous sources of funds.
    But if you look back at the U.S. Treasury Department, they 
have actually targeted a network inside Yemen, a banking 
network that is de facto run by AQAP. And it is tied to false 
charities that are taking money in from gulf donors, and they 
are basically funneling this money through the banking system.
    I would look very carefully at those designations by the 
U.S. Treasury Department and actually connect the dots a little 
bit on what they say, because it exposes the fact that the AQAP 
to this day has a sort of very significant fundraising 
apparatus that goes throughout the gulf.
    Senator Young. Thank you.
    Senator Risch. Thank you. I am going to ask, we have two 
left to ask questions, and we have a vote coming up pretty 
quickly, so I am going to ask if you can keep your answers to 
the point where we can stay within the 5-minute round. I 
appreciate the fact--I know I am usually on the end of the line 
myself, so I can appreciate it.
    But this is an incredibly interesting discussion. 
Hopefully, there will be some questions for the record that you 
will be able to respond on.
    Senator Murphy.
    Senator Murphy. Thank you, Senator Risch.
    To me, American policy in the Middle East is a broken 
record, and the record is entitled, ``Military Escalation.'' I 
have sat through this hearing over and over and over again with 
respect to U.S. policy in Iraq, U.S. policy in Syria, U.S. 
policy in Yemen. We are told that just a little bit more 
military intervention will eventually create fertile ground for 
peace. And every time we are, essentially, wrong.
    And so this is a deeply frustrating hearing to me, because 
it sounds like we are being asked to endorse, at least from one 
of our witnesses, a policy that we know fails--we know fails.
    So I want to ask two questions. The second one will be on 
that topic.
    But the first one is to you, Dr. Rand, to ask you to expand 
on your answer to Senator Shaheen with respect to targeting. So 
if you give the Saudis precision guided missiles, they may--
may--be able to hit more accurately what they want to hit. And 
so the question is, what do they want to hit?
    There is a new report from Amnesty International that the 
Saudis just recently, within the last 2 months, used cluster 
munitions in three residential areas. We know from reporting 
that they have deliberately targeted bridges that were on the 
no-hit list. Whether they deliberately targeted them or not, 
they have continued to hit civilian targets.
    And the only reason to give them precision guided missiles 
is if we are confident that they are going to hit the right 
stuff and not the wrong stuff. And yet we have been told for 2 
years that they are listening, they are getting better, and we 
get flooded with reports month after month that they are not 
getting better.
    So just expand on your answer here, because if you are 
going to give them these weapons, you better be damn sure that 
they are going to hit the right targets and not purposely hit 
the wrong targets.
    Dr. Rand. Thank you, Senator.
    So, right, what I was trying to remind the committee was 
the history of this discussion and how the State Department had 
really made the argument persuasively 2 years ago that it was 
the precision of the guided munitions itself that we wanted to 
increase, and it was in everyone's interests and comported with 
our values to do so. And the committee listened in 2015, and we 
sent over a shipment.
    We did not see a diminution in the sort of civilian 
casualties with the numbers but also the types of targets being 
hit.
    The two things we are looking for--and I think it is clear 
that it is binary; you know when there is progress; this is not 
murky--is 100 percent adherence to the no-strike list that has 
been given to the Saudis and to other coalition members, and 
you can ask DoD to certify to you whether there has been 
adherence to this no-strike list--it is black and white--and 
the application of the after action problems that the Saudis 
themselves found in their dynamic targeting.
    So in August 2016, they did their own report based a lot on 
our diplomacy through the Joint Incidents Assessment Team, and 
they wrote about some of the challenges they were having in 
targeting.
    So again, this is binary. Have they applied the lessons 
learned to the new targeting?
    And I would just add that, in looking over the 2 years and 
charting improvements, because that is what you are asking 
about, is trends over time and where we have seen them go up 
and down, really, the only 2- or 3-month period that I saw some 
progress was after the White House in October 2016 had to raise 
publicly their concerns about security assistance. That 
deterred them. They were concerned. They heard that message. 
Although it was critical of an ally and a friend, it deterred 
and it sent some people really watching the practice.
    Senator Murphy. So, Ambassador, why not make that a 
condition of the sale? Why not say that if you are hitting 
things that are on the no-strike list, we stop the sale? They 
clearly have responded to pressure in the past.
    And second, if this escalation does not work--your theory 
of the case is you have to press military advantage to get an 
opening for peace. The other theory of the case is that 
actually de-escalation can be a signal that you are ready to 
sit down at the table.
    Two questions. Why not make that an explicit condition to 
the sale? And second, if this escalation does not work, is that 
the end? Can we then maybe try to pursue a policy of de-
escalation?
    Ambassador Feierstein. I would say two things in answer to 
your question, Senator.
    One, unfortunately, and not only talking about munition 
sales or other kinds of sales to the Saudis, the reality is 
that as we have become more concerned about Saudi behavior and 
the military operations, we have actually pulled back on 
support. We are doing less for the Saudis, less with the Saudis 
today than we were at the beginning of the conflict.
    We had General Mundy in the operations center working with 
the Saudis on a daily basis. We pulled that team out. We are 
giving less guidance, less assistance today than we have been 
in the past. And I think that that is hurting them, and it is 
hurting us. I would say that what we need to do is more 
engagement along those lines.
    The other point that I would make is that I am not 
advocating an expansion of the conflict. In fact, what I would 
say is that, for the most part, we should be encouraging the 
Saudis and the coalition to adopt a more defensive posture to 
ensure that the Houthis and Ali Abdullah Saleh are not able to 
make advances. Except for the single instance of Hodeidah, and 
Hodeidah only because I believe it can be a crucial element of 
a humanitarian strategy, I think that we should not be 
encouraging the Saudis to do more.
    Senator Risch. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Let me just follow up then, in terms of a Saudi offensive 
on Hodeidah, which would bring a high risk of more civilian 
casualties and long-term closure of the port, through which 
most of the humanitarian assistance flows.
    If the Saudis choose that course and cut off humanitarian 
assistance to areas at high risk of famine, what effect would 
that have on attitudes of the civilian population toward the 
parties to the war, towards the Saudis, towards United States?
    Dr. Rand.
    Dr. Rand. Thank you, Senator. This is exactly the point.
    So, in the short term, the fighting itself would have 
deleterious effects on the access, so that would be negative in 
the short term. Even in the long term, we would be banking on 
the Saudis being able to reestablish port access and 
distribution networks in a better way than the current system, 
which is not 100 percent but is working. It is not ideal, but 
it is working.
    So we are banking on a better system of distribution. And I 
am not optimistic that that will necessarily happen in enough 
time to address the concerns of the people of Yemen. And I 
think it will add to the grievance directly against the United 
States because it will not even be the coalition anymore. It 
will be Yemenis saying that the Americans have helped a siege, 
et cetera.
    Senator Markey. Okay. Thank you.
    I would like to get each of your perspectives on core Al 
Qaeda's apparent direct operational control of both Al Qaeda in 
the Arabian Peninsula and Yemen, and al-Nusra in Syria. How 
closely do these two groups coordinate? What is Al Qaeda's 
current presence in Iraq?
    Mr. Joscelyn. This is a great question right up my alley, 
so basically, about 18 months ago, Al Qaeda said they shifted 
the weight of their organization to Yemen and Syria. This is 
something the leadership did. Over time, they were actually 
reflecting past decisions, because they saw those are the two 
places where leadership was most necessary.
    There is coordination across the network. There is Al Qaeda 
senior leadership in Yemen and in Syria today.
    Earlier, Senator Shaheen asked about the bombmaker Asiri. 
He actually trained deputies in highly sophisticated 
explosives, some of whom actually went to Syria and were 
integrated into something called Al Qaeda's Khorasan group, 
which was then bombed in 2014 by the Obama administration--
rightfully so.
    They were devising very sophisticated means to attack 
airliners and other things. I am very worried that those 
activities are still going on and are actually across both 
countries.
    The bottom line here is, just to sum this up very quickly, 
Al Qaeda's core was never defeated. It was never decimated. 
They suffered dozens of leadership losses for sure, but they 
had thought that through, and they knew that they were going to 
suffer those losses. And we are still killing guys to this day 
who first joined the jihad in 1979 and 1980. I was 3 years old 
at the time.
    Senator Markey. So you are saying close coordination 
exists.
    Mr. Joscelyn. I cannot tell you on a day-to-day basis how 
much coordination is going on, but I see a lot of evidence of 
coordination across the whole thing. They have a newsletter, 
for example, the AQAP puts out called al-Masra. It is in 
Arabic. It goes out every week. They have a detailed commentary 
on what is going on in Syria and across the Al Qaeda network. 
And it actually reflects a very detailed coordination of sort 
of their analysis of the picture of the world.
    Senator Markey. Okay.
    And, Ambassador Feierstein, last month, Secretary Tillerson 
met with the U.N. Special Envoy for Yemen and his counterparts 
from Saudi Arabia, the UAE, Oman, and the UK. The State 
Department readout of the meeting referenced the need for 
unfettered delivery of humanitarian assistance but omitted any 
mention of the need for a ceasefire, as had been included in 
readouts of similar meetings in the past.
    What signal, from your perspective, does that send about 
the U.S. interests in the end of the war?
    Ambassador Feierstein. Well, I think that the statement 
also referred to the need for resumption of political 
negotiations and, again, U.N. Security Council Resolution 2216, 
which lays out the political strategy to achieve progress and a 
resolution.
    So I do not think that there was any change. As you know, 
Secretary Kerry, at the end of the Obama administration, tried 
on several occasions to try to get a ceasefire going. It did 
not really work. And so I think that, realistically, the 
immediate issues, the immediate challenges should be 
humanitarian relief and resumption of the political 
negotiations.
    Senator Markey. Do you think the omission of the phrase 
``ceasefire'' has any meaning at all? Is there a change in the 
strategy that we are----
    Ambassador Feierstein. Sir, if I may, I do not think so, 
because I think that, within the context of a political 
negotiation, you can have a discussion about ceasefires, as we 
saw last year----
    Senator Markey. In your opinion, what is the chief sticking 
point? What is the chief sticking point to a negotiated 
settlement?
    Ambassador Feierstein. From my perspective, I think the 
chief sticking point, at this point, is that neither the 
Houthis nor Ali Abdullah Saleh see an interest in bringing it 
to a resolution. And then there are additional complexities 
that, even if there is a political resolution, you are going to 
have instability in Yemen for many years to come.
    Senator Markey. Thank you.
    Senator Risch. Thank you.
    Senator Booker.
    Senator Booker. So, clearly, we see what the Trump 
administration is moving to do right now. The headlines in the 
Washington Post are that they are going to resume arms sales.
    I am really concerned in the way that Senator Murphy was 
about the futility of the efforts that we are continuing and 
the gravity of the sheer scale of the human crisis that is 
going on in the country right now, 3 million internally 
displaced people, millions and millions of people on the brink 
of famine, and the extreme nature of that.
    It seems there are two different perspectives on whether we 
should be engaging in assisting in this Hodeidah effort, and 
what consequences that will have.
    What concerns me is we have already pulled out, as you were 
saying from, from the Joint Combined Planning Cell. We are not 
even in there engaged anymore.
    And I have heard, as I am sure you have, unofficial reports 
that we are sort of offended by the way they were going about 
doing a lot of their targeting, at least our high-level 
military personnel.
    So I actually agree with the Al Qaeda threat, and clearly, 
we have a number of missions there. I hope that top amongst 
them is humanitarian, helping our allies so that we are able to 
protect the actual border from incursions, bringing an end to 
this conflict, defeating Al Qaeda and that.
    But I just am not convinced that more empowering Saudi 
Arabia to conduct it the way they are is not going to hurt us 
on many of those critical goals that the United States has.
    So I guess the first question, real quick, to Dr. Rand, we 
have no assurances, nothing has changed in our ability to 
curtail the Saudi indiscriminate casualties that are being 
created. Nothing has changed between the end of the Obama 
administration that suspended the sale of those arms and the 
Trump administration and their activities now. Has anything 
changed?
    Dr. Rand. I think there is an anecdotal answer to your 
question, Senator, and then a systemic one. And for the 
systemic answer, I would urge you to ask DoD colleagues to 
really assess militarily.
    Anecdotally, there was a large civilian casualty attack in 
October at the funeral hall, and we have not seen a big attack 
of that sort, with hundreds or so of civilians. So in that 
sense, there has been an improvement in that there has not been 
a large scale--we have seen a few much smaller strikes where 
civilians have been killed.
    So I cannot tell you for sure that the problem has been 
addressed. Again, I think it is a military judgment question 
that is best suited to Secretary Mattis or Chairman Votel to go 
in and really assess whether the practices--this is scientific, 
essentially, targeting. And our CENTCOM folks are really, 
really good at it, so they can assess.
    Senator Booker. Right. Two more points.
    Ambassador, your really insightful written testimony, I 
really appreciate that. And from everybody, I think I seem to 
conclude that nobody believes this is going to be a military 
victory. It is going to be a negotiated victory, and it is 
going to be a unity government of some sort.
    Is that correct, sir?
    Ambassador Feierstein. Yes, sir.
    Senator Booker. And so the military advantage of more 
battle victories, whether it is in Hodeidah or not, it is not 
necessarily related to the eventual negotiated outcome?
    Ambassador Feierstein. No, I think it is fundamentally a 
way of applying leverage to try to get people to the 
negotiating table.
    Senator Booker. Okay. And then the last question, 
mercifully, from my much senior Senator Risch, is just simply, 
the internal politics in Saudi Arabia are really fascinating to 
me, having visited there, and sort of MBS and his sort of 
ambitions.
    Can you give me any insight? Am I sort of far-fetched in my 
belief that some of this has to do with the sort of ambitions 
for power and how this is being conducted, and the thrust of 
MBS? Is there anything there? Any threads there to pull on, 
Ambassador?
    Ambassador Feierstein. I would have to say I think that 
many people speculate that, in fact, this was an initiative 
that Mohammad bin Salman supported in the beginning.
    I had the opportunity to visit Saudi Arabia with Secretary 
Kerry just about a year ago, and we met with both Muhammad bin 
Nayef and Mohammad bin Salman. And I would have to say that, at 
least at that point, the two leaders were very much in lockstep 
in terms of their perspective and in terms of the way that they 
wanted to go forward.
    So I am not sure that I would put too much weight on this 
idea that it is a reflection of internal differences within 
Saudi Arabia.
    Senator Booker. And I suspect all three of you would be 
available if a junior United States Senator wanted to continue 
the conversation at some later date?
    Ambassador Feierstein. Absolutely.
    Senator Booker. Thank you very much.
    Senator Risch. Thank you, Senator Booker.
    Thank you to our witnesses for attending today. There may 
be some additional questions for the record from members. We 
are going to keep the record open until close of business on 
Monday, if you would respond promptly, we would greatly 
appreciate it. But we sincerely appreciate your input.
    I think what the bottom line here is we all have the same 
objective. We may have some differences as to how we are going 
to get there. And it is a heavy lift, to say the least.
    Thanks again. This meeting is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Dr. Dafna Rand to Questions 
                    Submitted by Senator Todd Young

    Question. How would you characterize Al-Qaida in the Arabian 
Peninsula's (AQAP's) base of domestic support in Yemen? To what degree 
is that support for AQAP a consequence of the failure to establish 
effective governance representing most of the Sunni tribes and people? 
What else makes some Yemenis favorably disposed toward AQAP? What else 
can be done to undermine AQAP's sources of domestic support?

    Answer. AQAP has strong links to some tribal communities in 
Southern Yemen, but in general its violent ideology is foreign to most 
Yemenis' religious and cultural norms.
    AQAP is an opportunistic organization. It has risen and fallen 
based on its ability to take advantage of governance gaps in Yemen as 
well as competition among the fractious Yemeni security apparatuses and 
militias.
    The perpetuation of the war between the Government of Yemen and its 
allies and the Houthi/Saleh forces enables AQAP, for a number of 
reasons.
    Practically speaking, it is hard to sustain the resources required 
to fight on two battlefields; there has been a natural diversion of 
resources toward the fight against the Houthi/Saleh forces by those who 
would otherwise only be focused on combating AQAP.\1\ Second, because 
the Houthi aggression has been perceived by many southern Yemenis as an 
assault by Iranian-backed Shia forces, the sectarian character to the 
fighting between North and South has increased the potential for AQAP's 
ideological message to resonate more broadly. AQAP has emphasized Sunni 
grievances and the role of sectarian, religious differences that were 
not, until recently, salient features of political identity in 
Yemen.\2\ Finally, AQAP is also currently expanding its governance-like 
activities in spaces where the Yemeni government cannot operate, 
including by distributing humanitarian aid. This has generated some 
support for AQAP among the local communities residing in these areas.

    Question. What are the primary obstacles to the resumption of 
constructive political negotiations, and what can the U.S. and our 
partners do to help surmount those obstacles and encourage constructive 
political negotiations? What is the U.S. not doing that we should in 
order to encourage constructive political negotiations?

    Answer. It is urgent for the United States to resume a diplomatic 
focus on resolving the Yemen conflict, beginning by urging its partners 
to press for a new cessation of hostilities. (If sustained, such a 
cessation of hostilities will also enable more humanitarian aid to be 
distributed). The U.S. helped to promote serious regional negotiations 
in the fall of 2016, and these should be restarted. The Administration 
should send a high level envoy to help jump-start a new round of 
negotiations, focusing on the elements of the Roadmap almost all of the 
parties agreed to in October 2016. The United States and its Quad 
partners (Saudi Arabia, the United Arab Emirates, and the United 
Kingdom) will need to be firm with the Yemeni parties on particular 
sticking points, such as the transfer of presidential authorities. 
Regional partners, including the Omanis, will need to press the Houthis 
and the internationally-recognized Yemeni Government on a new cessation 
of hostilities, and to negotiate the sequenced approach that pairs 
military withdrawal with political compromises.
    As recently as December 2016, the Quad governments reaffirmed their 
support for the October 23, 2016 Roadmap as the basis for negotiations 
in Yemen.\3\
    Specifically, the October 23 principles recognize that the terms of 
the negotiations would include: ``Sequenced security steps and 
necessary withdrawals; Appointments for the political transition; 
Resumption of consultations with the U.N. based on the GCC Initiative 
and Implementation Mechanism, the National Dialogue Outcomes, U.N. 
Security Council resolution 2216 and other relevant resolutions; 
Additional withdrawals; Signing an agreement; Donors conference; and 
The national unity government starts a political dialogue to finalize 
the electoral roadmap and draft constitution.'' \4\

    Question. The Washington Post reported recently that the State 
Department has approved a resumption of weapons sales to Saudi Arabia--
including precision guided munitions. Do you support that decision? 
Should we attach any conditions on Saudi Arabia to these sales? If so, 
what specifically should those conditions be?

    Answer. The decision to continue or pause on individual arm sales 
to the Coalition should be predicated on the answers to a number of 
questions. Some of the key questions include: Does the United States 
have insight into how these weapons are being used? Are the weapons 
important in order to defend our allies' direct security needs? Are 
previous shipments of these U.S. weapons being used in accordance with 
past certifications and letters of agreement? Does the decision to sell 
additional weapons generate reputational, policy, or legal risks to the 
United States?
    Answers to these questions allow policymakers to deliberate on risk 
versus reward trade-offs in order to arrive at a decision.
    Based on U.S. laws, policies, and precedent, the United States 
should ascertain whether U.S. Coalition partners are adhering--and 
improving their adherence to--the No Strike List, which includes 
infrastructure critical to the distribution of humanitarian assistance. 
Were the munitions to be delivered quickly, they could be employed in 
the Coalition's operations in the Red Sea port region, through which 90 
percent of humanitarian assistance and aid transits into Yemen. Such an 
operation could potentially have dire humanitarian consequences. The 
Department of Defense should review Coalition partner efforts to 
improve their dynamic targeting capabilities.
    Finally, reversing the 2016 pause on the PGMs and going ahead with 
the sale sends a very strong diplomatic message that the United States 
supports the continuation--indeed the escalation--of this war. 
Policymakers must take seriously their decision to send this signal, 
given that ending the war is the most direct way to secure U.S. 
interests, such as countering Iran and AQAP.

    Question. From the perspective of U.S. economic and national 
security interests, how important is the Bab al-Mandab Strait and how 
great of a threat do the Iranian-backed Houthis pose to the Strait 
going forward? Working with our partners, do you agree that maintaining 
the freedom of navigation through the Mandab Strait is among our top 
priorities in the region? Do you agree that any attacks on U.S. 
military or commercial vessels in or near the Strait should be met with 
a very strong response to deter future attacks?

    Answer. It is critical to protect freedom of navigation in the Bab 
al-Mandab Strait. Iranian-backed Houthi forces threatened this freedom 
in the fall of 2016 and were met with a strong response. Currently, the 
United States has excellent coordination with our partners to ensure 
the safety and security of U.S. military and commercial vessels.
    Attacks on U.S. vessels in the Red Sea were met with strong 
responses in the fall of 2016. These responses reaffirmed and 
reinforced the strong U.S. deterrence posture in the region.

----------------
Notes

    \1\ Alexis Knutsen, "Al Qaeda Attack Seeks to Draw Yemen into Two 
Front War," American Enterprise Institute Ideas, August 29, 2014, 
https://www.aei.org/publication/al-qaeda-attack-seeks-to-draw-yemen-
into-two-front-war/
    \2\ Farea Al-Muslimi, "How Sunni-Shia Sectarianism is Poisoning 
Yemen," Carnegie Endowment Diwan, December 29, 2015, http://carnegie-
mec.org/diwan/62375?lang=en.
    \3\ "Communique on Yemen," From the Foreign Ministers of the United 
States, United Kingdom, Kingdom of Saudi Arabia, United Arab Emirates, 
U.N. Special Envoy, and Omani Minister of Foreign Affairs, Office of 
the Spokesperson, U.S. Department of State, December 18, 2016, https://
2009-2017.state.gov/r/pa/prs/ps/2016/12/265752.htm Press release from 
State archives from December 18, 2016.
    \4\ Ibid.
                                 ______
                                 

               Responses of Dr. Dafna Rand to Questions 
                   Submitted by Senator Jeff Merkley

    Question. On March 8, Amnesty International released fresh 
documentation that the Saudi-led Coalition employed cluster munitions 
in a February 15th attack on a residential area of Sa'da city. Two 
civilians were injured in the attack.

  <bullet> Is there a legitimate military purpose for the Saudi-led 
        Coalition to employ cluster munitions in a civilian-populated 
        urban area?

  <bullet> Is the use of cluster munitions in civilian-populated areas 
        consistent with Saudi Arabia's obligations under international 
        humanitarian law even when the military target is legitimate?

  <bullet> Do you believe the United States should continue to prohibit 
        the sale of cluster munitions to Saudi Arabia?

    Answer. It is difficult to judge the legitimate military purpose of 
specific munitions used in particular strikes without knowing more 
about the intended target and other operational details.
    In 2016, the U.S. government paused on a sale of cluster munitions 
to Saudi Arabia,\1\ in part because of insufficient visibility into how 
these munitions were being used.
    The United States should continue to pause on sales when it has 
questions about their use. When weapons are being sold to U.S. partners 
involved in active conflict, it is appropriate to take steps to ensure 
visibility into how these weapons are being used and whether selling 
these weapons involves any policy, legal, or reputational risks to the 
United States. This analysis is relevant to cluster munition sales, 
just as it is relevant to other U.S. arm sales transacted worldwide.
    When exporting significant military equipment through Direct 
Commercial Sales, the Department of State requires that foreign 
governments fill out form DSP-83.\2\ In addition to other requirements, 
this document asks foreign governments purchasing significant U.S. 
military goods to certify that they will be used for the purposes 
delineated on the DSP-83 form.

    Question. Ambassador Feierstein stated in his testimony that U.N. 
Security Council Resolution 2216 remains the basis for a resolution of 
the political conflict in Yemen. The terms outlined in the resolution 
are unacceptable to the Houthis, however, which would seemingly 
preclude the resolution from serving as the basis of a negotiated 
solution.

  <bullet> Is Resolution 2216 still a realistic and helpful foundation 
        for pursuing a political solution to the conflict in Yemen?

  <bullet> Would the United States benefit from leading an effort at 
        the U.N. Security Council to pass a resolution that would 
        create a new template for peace?

  <bullet> If so, what would that template look like?

    Answer. As recently as December 2016, the governments of Saudi 
Arabia, the United Arab Emirates, the United Kingdom, and the United 
States (known as the ``Quad'') reaffirmed their support for the October 
23, 2016 Roadmap as the basis for negotiations in Yemen.\3\ This 
Roadmap made realistic adjustments to U.N. Security Council Resolution 
2216, including incorporating a sequenced approach to the political and 
security requirements placed on all sides. In effect, the Roadmap was 
aimed at ensuring that negotiations begin immediately, rather than 
stalling because one side demanded a complete withdrawal as a 
precondition to the negotiations. The Roadmap agreement reflected the 
view among these parties that U.N. Security Council Resolution 2216 
alone was outdated. In November, the Houthis publicly supported this 
Roadmap.\4\
    The October 23 principles recognize that the terms of Security 
Council Resolution 2216 would have to be negotiated further and 
sequenced appropriately. The negotiations would have to include: 
``Sequenced security steps and necessary withdrawals; Appointments for 
the political transition; Resumption of consultations with the U.N. 
based on the GCC Initiative and Implementation Mechanism, the National 
Dialogue Outcomes, U.N. Security Council resolution 2216 and other 
relevant resolutions; Additional withdrawals; Signing an agreement; 
Donors conference; The national unity government starts a political 
dialogue to finalize the electoral roadmap and draft constitution.'' 
\5\
    While a new U.N. Security Council resolution may be helpful, it is 
much more urgent for the United States to resume its diplomatic 
efforts, urging regional partners to begin negotiations on these 
issues. Specifically, the Administration should send a high level envoy 
to the region to reaffirm U.S. support for this Roadmap and to clarify 
that the United States' position on the diplomatic requirements have 
not changed. The Quad and other neighbors will have to press the 
Government of Yemen to accept the transfer of powers to new executive 
authorities as outlined in the Roadmap and the Houthis to adhere to the 
territorial withdrawal per the Roadmap sequence. A U.N. Security 
Council Resolution could bless a final deal negotiated by the parties 
themselves.

    Question. The front lines in Yemen have stagnated along lines that 
resemble the old border between the Yemen Arab Republic and the 
People's Democratic Republic of Yemen. In your testimonies, some of you 
mentioned the importance of Yemen remaining a unified, solitary state.

  <bullet> Could you please explain the benefits of a unified Yemen in 
        greater detail?

  <bullet> How would a de-facto partition, if agreed to by the parties, 
        by disadvantageous for U.S. interests?

    Answer. Practically speaking, a divided Yemen will perpetuate 
violence and conflict in Yemen, as competition for resources and 
survival continues. Yemen's resources are limited and most analysts 
judge that they may be insufficient to sustain two independent 
countries. Unifying Yemen and restoring sovereignty to a new National 
Unity Government will maintain stability, address the humanitarian 
needs of the Yemeni people, and improve U.S. cooperation with the 
Yemeni government and people to help rebuild from this conflict.
    A unified country with one sovereign government controlling the 
territory is the best way to defend the security of U.S. partners in 
the region--particularly Saudi Arabia, endangered by attacks on its 
southern border.
    A divided Yemen will benefit Iran and AQAP. Both actors are taking 
advantage of the divided security writ in Yemen. A partitioned Yemen 
would allow AQAP to exploit ungoverned spaces in the South. A divided 
Yemen would offer Iran greater opportunities to build ties of support 
and provide assistance to the Houthi/Saleh forces.

    Question. The situation in Yemen is extraordinarily complex. The 
Administration is reportedly increasing the number of U.S. airstrikes 
against AQAP, but to date has not articulated an approach to the 
broader conflict in Yemen. Mr. Joscelyn in his written testimony stated 
that the reported increase in U.S. airstrikes is designed primarily to 
weaken AQAP's guerilla army, which presumably is distinct as opposed to 
AQAP operatives who are actively plotting against the United States.

  <bullet> In your view, should the U.S. campaign against AQAP--
        especially AQAP elements that are not actively plotting 
        external attacks--only be considered within a broader U.S. 
        strategic framework for Yemen?

  <bullet> Is it helpful for the Administration to intensify strikes 
        against rank and file AQAP fighters before developing a broader 
        strategic framework in which to address the conflict?

    Answer. The United States cannot successfully design and implement 
a new strategy to weaken AQAP without considering its objectives and 
interests in Yemen more broadly. It must analyze how and whether one 
distinct battlefield--the Yemeni civil war involving regional proxies--
intersects with the counter-AQAP theater. For example, the Houthis 
themselves are now an enemy of AQAP and in some cases are reportedly 
attacking AQAP strongholds.\6\ Another linkage involves resource trade-
offs: The United States relies on its partners to help combat AQAP, but 
resources can be diverted to the Houthi/Saleh combat theater.\7\ 
Finally, AQAP is among the most threatening terrorist groups for 
Americans because of the group's demonstrated interest in attacking the 
United States and U.S. interests, as well as the group's level of 
capability.\8\ Therefore, any civilian loss of life that is linked to 
the United States has the potential to radicalize local Yemenis. This 
means that loss of life directly caused by intensified U.S. airstrikes 
against rank and file AQAP fighters or attributed to the United States 
indirectly, through U.S. support to the Saudi-led Coalition, could have 
an outsized impact on public sentiment. Considering the broader 
strategy will allow us to ensure that any short-term CT operations do 
not unintentionally generate new AQAP foot soldiers even as we take 
some off of the battlefield.
    In short, the broader U.S. strategy in Yemen directly influences 
AQAP's momentum and appeal as a political force in Yemen.

    Question. Ambassador Feierstein stated in his written testimony 
that ``Perhaps the greatest, and most unanticipated, benefit of the 
conflict to Iran has been the strain it has placed on Saudi Arabia's 
relationships with its key western partners, principally the U.S. and 
the UK.'' Dr. Rand, in her written testimony, described U.S. influence 
on the Saudi-led coalition as ``uneven.''

  <bullet> How do we best support our Saudi partners, and avoid 
        emboldening Iran, while still expressing our concerns with some 
        of the ways in which the Saudi-led Coalition has conducted its 
        military operations during this conflict?

  <bullet> If, as Dr. Rand suggests, our influence over our Saudi 
        partners ``uneven,'' how can we best influence Saudi Arabia to 
        address the concerning aspects of its military campaign?

    Answer. In the short term, we should make clear that U.S. 
assistance to Coalition partners is based on shared national security 
interests, including protecting our partners' sovereignty and their 
territorial integrity. For instance, we may need to adjust, modify, or 
increase military and intelligence cooperation and assistance in order 
to protect Saudi Arabia from the increased threat of Houthi-launched 
missiles.\9\
    Our strong and deep military-to-military ties offer a source of 
influence, especially if we consider how to train our partners on 
operational approaches, such as ways to respond to counter-insurgency 
threats. In addition, there are tangible steps our partners could take 
to reduce the risk of civilian harm. We should continue to provide our 
partners' opportunities through Department of Defense training and 
assistance on this issue.
    There is one urgent priority in terms of influencing our partners: 
The United States should convince our Gulf partners that their 
interests--like ours--militate in favor of an urgent end to this war. 
Active U.S. diplomacy should focus on explaining why there is no real 
military solution that is both realistic and will achieve their 
objectives, securing their interests over time. Rather than considering 
a military escalation, our partners should consider how diplomacy can 
achieve a balanced approach--such as that offered in the Roadmap--to 
secure our partners' borders and establish a friendly government in 
Sanaa.
    Over time, we should strategically re-orient our assistance, sales, 
and military cooperation approach to fit the United States' specific 
threat assessment and overall interests. If the United States can be 
more consistent across the U.S. interagency, strategic, and clear about 
our own goals in all military and civilian diplomatic encounters, then 
we can increase our influence.

----------------
Notes

    \1\ John Hudson, ``Exclusive: White House Blocks Transfers of 
Cluster Bombs to Saudi Arabia,'' May 27, 2016, Foreign Policy, http://
foreignpolicy.com/2016/05/27/exclusive-white-house-blocks-transfer-of-
cluster-bombs-to-saudi-arabia/.
    \2\ The requirements for the foreign government can be found on 
this form: http://pmddtc.state.gov/licensing/documents/dsp--83.pdf.
    \3\ ``Communique on Yemen, ''from the Foreign Ministers of the 
United States, United Kingdom, Kingdom of Saudi Arabia, United Arab 
Emirates, U.N. Special Envoy, and Omani Minister of Foreign Affairs, 
Office of the Spokesperson, U.S. Department of State, December 18, 
2016, https://2009-2017.state.gov/r/pa/prs/ps/2016/12/265752.htm Press 
release from State archives from December 18, 2016.
    \4\ The Houthi's support for this Roadmap was written into this 
Communique. Ibid.
    \5\ Ibid.
    \6\ Michael Horton, ``AQAP in Southern Yemen: Learning, Adapting, 
Growing,'' The Jamestown Foundation Terrorism Monitor, Volume: 14 
Issue: 20, October 14, 2016, https://jamestown.org/program/aqap-
southern-yemen-learning-adapting-growing/. See also, Alexis Knutsen, 
``Al-Qaeda Attack Seeks to Draw Yemen into Two Front War,'' American 
Enterprise Institute Ideas, August 29 2014, https://www.aei.org/
publication/al-qaeda-attack-seeks-to-draw-yemen-into-two-front-war/.
    \7\ Knutsen, American Enterprise Institute Ideas.
    \8\ According to Michael Horton, ``While AQAP is currently devoting 
most of its energies to fighting what it defines as the ``near enemy,'' 
namely the Houthis and their allies, there is little doubt that the 
organization will once again turn its attention to the ``far enemy'', 
the United States and its allies. When AQAP's focus returns to the far 
enemy, it will be better equipped, better funded and most importantly 
far more resilient.''
    \9\ For some examples of potential areas for increased assistance, 
see Lori Plotkin Boghardt and Michael Knights, ``Border Fight could 
Shift Saudi Arabia's Yemen War Calculus,'' Washington Institute for 
Near East Policy, December 6, 2016, http://www.washingtoninstitute.org/
policy-analysis/view/border-fight-could-shift-saudi-arabias-yemen-war-
calculus.
                                 ______
                                 

          Responses of Hon. Gerald M. Feierstein to Questions 
                    Submitted by Senator Todd Young

    Question. How would you characterize Al-Qa'ida in the Arabian 
Peninsula's (AQAP's) base of domestic support in Yemen? To what degree 
is that support for AQAP a consequence of the failure to establish 
effective governance representing most of the Sunni tribes and people? 
What else makes some Yemenis favorably disposed toward AQAP? What else 
can be done to undermine AQAP's sources of domestic support?

    Answer. I believe that AQAP has been successful in re-establishing 
itself in many areas of Yemen based largely on its efforts to use the 
sectarian dynamics of the civil conflict and embed with Sunni tribes 
that are resisting the Houthis, who are Zaydi Shia. While this is a 
significant development, I don't believe it reflects a strong pro-AQAP 
sentiment on the part of these tribes and it certainly doesn't mean 
that the tribes are ideologically supportive of AQAP's larger ambitions 
to wage global jihad. For a pragmatic people locked in a struggle that, 
for them, is existential, AQAP represents a source of weapons and 
funding. The ties to AQAP can be broken when the need for the 
assistance is no longer there.
    Certainly, the failure of governance in large parts of Yemen, 
exacerbated by the political chaos and the civil conflict since 2015, 
has enabled AQAP to operate freely throughout the country. Once the 
political conflict is resolved, it will be important to help the 
Government of Yemen extend its control into the ungoverned spaces in 
which AQAP has thrived. This will require a strong international effort 
to re-build damaged infrastructure and address the ongoing humanitarian 
crisis. But it will also require a long term effort to build essential 
institutional capacity to provide Yemenis with the basic services, 
including health and education, as well as to build a foundation that 
permits economic development. AQAP will not be able to maintain popular 
support in a circumstance where the government is able to address the 
basic needs of the Yemeni people and citizens have confidence in their 
futures.

    Question. What are the primary obstacles to the resumption of 
constructive political negotiations, and what can the U.S. and our 
partners do to help surmount those obstacles and encourage constructive 
political negotiations? What is the U.S. not doing that we should in 
order to encourage constructive political negotiations?

    Answer. The principal obstacle to the resumption of political 
negotiations, in my view, is the fact that the parties have not yet 
concluded that they cannot achieve their political objectives through 
the continuation of the conflict. This is particularly true in regard 
to the Houthis and their partner, Ali Abdullah Saleh, who has declared 
publicly that he is prepared to see the conflict continue for another 
10 years. As I noted in my opening remarks, I believe that this 
perception that there can be a military solution is misguided. In fact, 
the conflict is stalemated and there is nothing on the horizon that is 
likely to change the dynamics of the conflict substantially.
    In that respect, the U.S. should encourage the Hadi government and 
its Coalition partners to limit military action to defensive measures 
with two exceptions. First, the Saudis should continue to undertake 
actions to defend their border with Yemen and to prevent the 
continuation of threatening Houthi actions across the border into Saudi 
Arabia. Second, I believe that it would advance the cause of achieving 
a peaceful resolution of the conflict if the government and Coalition 
were able to secure Yemen's Red Sea coast including Hodeidah. Cutting 
off Houthi access to the Red Sea would reduce the flow of smuggled 
Iranian weapons to the Houthis substantially, undercutting their 
capacity to continue the conflict, while also reducing the threat the 
Houthis pose to shipping in the Red Sea and the Bab al-Mandeb. As I 
noted previously, U.S. support for Coalition offensive operations 
around the port of Hodeidah should be predicated on a clear 
understanding with the Coalition partners that they will immediately 
undertake operations to repair the port, restore its full 
functionality, and guarantee unfettered access to the port by 
international humanitarian organizations in order to relieve Yemen's 
growing humanitarian crisis.
    On the political front, I believe it is important that the U.S. 
continue to demonstrate full support for the U.N.-led negotiations 
based on the implementation of U.N. Security Council Resolution 2216. 
There are some who advocate passing a new resolution or substantially 
altering the character of 2216. We should leave the door open for 
negotiations over a new interim government once the fundamental 
principles of restoring the legitimate government to power are 
achieved. But I think it would be a mistake to back away from the 
international community's principled position on the Yemen conflict at 
the point of a gun.

    Question. The Washington Post reported recently that the State 
Department has approved a resumption of weapons sales to Saudi Arabia--
including precision guided munitions. Do you support that decision? 
Should we attach any conditions on Saudi Arabia to these sales? If so, 
what specifically should those conditions be?

    Answer. I do support the decision to resume sales of precision 
guided munitions (PGMs) to Saudi Arabia for several reasons. First, I 
believe that Saudi use of more accurate munitions will help limit 
collateral damage and civilian casualties as a result of Saudi air 
operations in the Yemen conflict. Second, the U.S.-Saudi security 
relationship is a main pillar of our overall strategy to achieve 
security and stability in the region. To maintain the viability of that 
relationship, I think that the U.S. needs to demonstrate that it is a 
reliable partner for the Saudis committed to maintaining our support 
for their legitimate security requirements.
    Nevertheless, I believe that the U.S. is right to be concerned 
about the continued incidence of Saudi and Coalition errors in 
prosecuting their military campaign in Yemen. The damage to 
infrastructure and civilian casualties as a result of these incidents 
is much greater than would be the case if the Coalition were exercising 
appropriate precautions in their planning and targeting. Therefore, I 
believe that, in addition to supplying more accurate munitions, the 
U.S. should also return to more active engagement with the Saudi 
military leadership in order to improve their performance on the 
targeting side. While not a condition of the PGM sale per se, I believe 
that this insistence on a more direct U.S. role in advising and 
assisting Saudi strategy and tactics would contribute directly to 
improved performance and a reduction in collateral damage.

    Question. From the perspective of U.S. economic and national 
security interests, how important is the Bab al-Mandab Strait and how 
great of a threat do the Iranian-backed Houthis pose to the Strait 
going forward? Working with our partners, do you agree that maintaining 
the freedom of navigation through the Mandab Strait is among our top 
priorities in the region? Do you agree that any attacks on U.S. 
military or commercial vessels in or near the Strait should be met with 
a very strong response to deter future attacks?

    Answer. The Bab al-Mandab is identified as one of eight maritime 
strategic chokepoints in the world. Nearly 5 percent of the world's oil 
supply and 10 percent of the world's liquefied natural gas supplies 
flow through the Bab on a daily basis. Overall, nearly all of the trade 
between Europe and Asia, some $700 billion annually, transits the Bab 
al-Mandab. Thus, continued access to the Strait is of vital interest to 
the U.S. and the world. Moreover, with Iranian threats to attack 
shipping in the Strait of Hormuz in the event of conflict with the U.S. 
or our partners, ensuring that Iranian-supported Houthi elements in 
Yemen aren't similarly able to threaten maritime shipping in the Bab 
al-Mandeb, Red Sea, and Gulf of Aden must be a priority for the United 
States.
    Within the past 6 months, the Houthis attempted to establish 
precisely that capacity to threaten shipping. Using anti-ship missiles 
and small suicide boats, the Houthis launched attacks against U.S., 
Emirati, and Saudi naval vessels. A strong U.S. response to the mid-
October attack on the USS Mason may have prevented additional attacks 
using shore-launched, anti-ship missiles. But the successful suicide 
boat assault on a Saudi frigate in January, which took the lives of two 
Saudi sailors, demonstrated that the Houthis had not abandoned their 
efforts to threaten Red Sea shipping entirely.
    Perhaps more effective in defeating renewed Houthi threats to 
maritime passage of the Red Sea and the Bab al-Mandeb, continued 
progress by the Yemeni government with its Saudi-led Coalition partners 
in securing control of Yemen's Red Sea coast, the Tihama, will deny the 
Houthis access to the coastal region that they require. For its part, 
the U.S. should make clear that it is determined to protect maritime 
shipping lanes in the Red Sea and that it will respond aggressively to 
any threats against shipping in the region.
                                 ______
                                 

          Responses of Hon. Gerald M. Feierstein to Questions 
                   Submitted by Senator Jeff Merkley

    Question. On March 8, Amnesty International released fresh 
documentation that the Saudi-led Coalition employed cluster munitions 
in a February 15th attack on a residential area of Sa'da city. Two 
civilians were injured in the attack. Is there a legitimate military 
purpose for the Saudi-led Coalition to employ cluster munitions in a 
civilian-populated urban area?

    Answer. In principle, cluster munitions are an anti-personnel 
weapon that should not be used in heavily populated areas. Without 
knowing the details of the Saudi use of these weapons, or if the 
weapons used were actually cluster munitions, as previous reports of 
their use have often proved erroneous, I could not comment on the 
appropriateness of the Saudi action.

    Question. Is the use of cluster munitions in civilian-populated 
areas consistent with Saudi Arabia's obligations under international 
humanitarian law even when the military target is legitimate?

    Answer. I am not qualified to speak to the international law 
aspects of this issue.

    Question. Do you believe the United States should continue to 
prohibit the sale of cluster munitions to Saudi Arabia?

    Answer. Yes. Given the circumstances of the current conflict in 
Yemen, it was not my view that the sale of cluster munitions was 
necessary for Saudi Arabia's military efforts.

    Question. Ambassador Feierstein stated in his testimony that U.N. 
Security Council Resolution 2216 remains the basis for a resolution of 
the political conflict in Yemen. The terms outlined in the resolution 
are unacceptable to the Houthis, however, which would seemingly 
preclude the resolution from serving as the basis of a negotiated 
solution. Is Resolution 2216 still a realistic and helpful foundation 
for pursuing a political solution to the conflict in Yemen?

    Answer. Yes. In my view, UNSCR 2216 reflects a principled position 
that a negotiated transition process that was endorsed by a majority of 
the Yemeni people through an election should not be overturned at the 
point of a gun. While the possibility for changes in the government 
structure may be acceptable through a subsequent negotiation, in my 
view that should come only after acceptance of the basic principle of 
the legitimacy of the government.

    Question. Would the United States benefit from leading an effort at 
the U.N. Security Council to pass a resolution that would create a new 
template for peace?

    Answer. As I noted, I do not believe that we should encourage or 
support a resolution that undoes the basic principles established by 
UNSCR 2216.

    Question. If so, what would that template look like?

    Answer. I believe establishment of a new template would probably be 
rejected by the current government as well as the Coalition supporting 
it and would not advance the negotiation process between the parties.

    Question. The front lines in Yemen have stagnated along lines that 
resemble the old border between the Yemen Arab Republic and the 
People's Democratic Republic of Yemen. In your testimonies, some of you 
mentioned the importance of Yemen remaining a unified, solitary state.

  <bullet> Could you please explain the benefits of a unified Yemen in 
        greater detail?

  <bullet> How would a de-facto partition, if agreed to by the parties, 
        be disadvantageous for U.S. interests?

    Answer. We have seen from the history of the southern Arabian 
Peninsula that the division of Yemen into two separate countries 
exacerbated the fractiousness of the region, promoted conflict between 
and within the two political entities, and proved incapable of 
providing economic or social stability for the citizens. The totality 
of that failure of governance opened the door to the rise of violent 
extremist organizations, especially al-Qaeda in the Arabian Peninsula 
(AQAP).
    While the united Yemeni state has continued to suffer from many of 
the same political and social challenges, the potential for addressing 
some of the country's endemic problems has increased. We witnessed that 
potential in the successful experiment of the National Dialogue 
Conference that attempted, for the first time, to address many of 
Yemen's social, political, and economic problems. Regrettably, the 
current conflict has placed the findings and recommendations of the 
National Dialogue on hold. But they remain in place ready to be 
implemented once the civil conflict is resolved.
    A re-division of the country will undo any of the progress that the 
Yemeni people have made in addressing their challenges. It will re-
create two failed states incapable of providing for their people. It 
will strengthen the hand of AQAP and expand its ability to exploit 
ungoverned space throughout the region, destabilizing Yemen, the 
Arabian Peninsula, and potentially the entire international community. 
An additional challenge will involve the many Yemenis who have moved 
from their native areas to the north or the south since 1990. The 
potential that they may be exposed to threat or retribution by local 
populations may also create conditions of intense violence and ethnic 
cleansing in affected areas.

    Question. The situation in Yemen is extraordinarily complex. The 
Administration is reportedly increasing the number of U.S. airstrikes 
against AQAP, but to date has not articulated an approach to the 
broader conflict in Yemen. Mr. Joscelyn in his written testimony stated 
that the reported increase in U.S. airstrikes is designed primarily to 
weaken AQAP's guerilla army, which presumably is distinct as opposed to 
AQAP operatives who are actively plotting against the United States. In 
your view, should the U.S. campaign against AQAP--especially AQAP 
elements that are not actively plotting external attacks--only be 
considered within a broader U.S. strategic framework for Yemen?

    Answer. Yes. As I noted in my prepared testimony, it is extremely 
important that the United States only undertake operations in Yemen in 
instances where our intelligence is absolute, we have retained the 
standard of near certainty there will be no civilian casualties, and we 
know that the individuals are, in fact, AQAP operatives who are either 
planning or readying for implementation attacks against the U.S. or 
other international targets. The U.S. should recognize that the fight 
against AQAP will be a long one, it will not be won by military 
measures alone, and the support and cooperation of the Yemeni people is 
going to be a critical element of our ultimate success. While AQAP has 
regrettably been able to use the current political chaos and conflict 
inside Yemen to re-establish itself in many areas of the country, many 
of the Yemenis who are seen as supportive of AQAP are likely doing so 
not because they share AQAP's ideological goals or its commitment to 
global jihad but because they see a relationship with AQAP as a 
pragmatic solution to their search for allies against domestic 
opponents. Targeting those Yemenis in that situation risks alienating 
the broader population and, moreover, can aid AQAP's propaganda efforts 
to convince the population that the U.S. is hostile to them and that 
global jihad is, in fact, a legitimate response to the U.S.

    Question. Is it helpful for the Administration to intensify strikes 
against rank and file AQAP fighters before developing a broader 
strategic framework in which to address the conflict?

    Answer. No. I don't believe that it is helpful for the U.S. to 
target rank and file AQAP fighters as we don't have good insights into 
their motivations and hitting those targets might, in fact, help AQAP 
build support among average Yemenis. Strategically, insofar as it 
addresses the AQAP threat, the U.S. should use kinetic operations to 
target AQ leadership and deny them the time and space to plan attacks 
against the U.S., our allies and partners. But kinetic operations will 
only succeed in buying time until we can work with the Government of 
Yemen and our international partners to help restore security and 
stability in the country, promote economic development, and give the 
Yemeni people the incentive to reject and resist AQAP and violent 
extremism.

    Question. Ambassador Feierstein stated in his written testimony 
that ``Perhaps the greatest, and most unanticipated, benefit of the 
conflict to Iran has been the strain it has placed on Saudi Arabia's 
relationships with its key western partners, principally the U.S. and 
the UK.'' Dr. Rand, in her written testimony, described U.S. influence 
on the Saudi-led coalition as ``uneven.'' How do we best support our 
Saudi partners, and avoid emboldening Iran, while still expressing our 
concerns with some of the ways in which the Saudi-led Coalition has 
conducted its military operations during this conflict?

    Answer. I believe that close coordination and consultation between 
the U.S. and Saudi Arabia on the situation in Yemen is absolutely 
essential and should focus on ensuring that there is complete 
transparency between the two sides not only on the tactics being 
employed but also to ensure that we retain the same strategic objective 
of achieving a political way forward in the framework of UNSCR 2216. In 
terms of the Saudi tactics in the conflict, I believe that we had a 
better understanding and greater influence on Saudi decision-making 
when we were more closely involved in Saudi operations, including 
maintaining a presence at the Air Operations Center. I believe that it 
is in our interest to re-establish that presence and intensify our work 
with Saudi planners and targeteers to ensure that Saudi operations meet 
fully the accepted international standards, including the laws of armed 
conflict.

    Question. If, as Dr. Rand suggests, our influence over our Saudi 
partners ``uneven,'' how can we best influence Saudi Arabia to address 
the concerning aspects of its military campaign?

    Answer. As noted, I believe that re-establishing the kind of close 
cooperation that existed at the beginning of the Saudi-led Coalition's 
military operations in Yemen is the most effective way to help the 
Saudis improve their performance and limit the collateral damage and 
civilian casualties that we have seen over the past 2 years. I also 
believe the U.S. has a strong interest in aiding the Saudis in 
improving their military capabilities more broadly and that we can help 
achieve that objective by maintaining our presence and offering 
additional assistance as we see the needs and the opportunities present 
themselves.
                                 ______
                                 

               Responses of Thomas Joscelyn to Questions 
                    Submitted by Senator Todd Young

    Question. How would you characterize Al-Qa'ida in the Arabian 
Peninsula's (AQAP's) base of domestic support in Yemen?

    Answer. AQAP is primarily an insurgency organization and is focused 
on building popular support for its jihadist cause. It is difficult to 
gauge just how much of the Yemeni population backs AQAP, but it is 
clearly a significant percentage of civilians, especially in the 
southern part of the country. AQAP is able to effectively control 
territory across much of southern Yemen at any given time, which 
implies a certain level of acceptance among the people. The group has 
governed by working with local councils, meaning that AQAP has 
developed roots in various communities. AQAP has developed 
relationships with various tribes, many of which may not share al 
Qaeda's ideology, but are still allied with the group.
    On the other hand, the fact that AQAP is still very careful about 
how it implements its medieval sharia laws in the areas under its 
control indicates that it is still concerned about alienating Yemenis. 
Therefore, AQAP has taken a long-term approach to inculcating its 
ideology in Yemen, as in other countries.

    Question. To what degree is that support for AQAP a consequence of 
the failure to establish effective governance representing most of the 
Sunni tribes and people?

    Answer. AQAP thrives from the absence of a strong government in 
Yemen. AQAP has positioned itself as a long-term substitute for a 
legitimate governing body, especially in the southern part of Yemen. 
The organization knows that providing effective governance is extremely 
difficult, however, so it has not been in a rush to declare an Islamic 
state.

    Question. What else makes some Yemenis favorably disposed toward 
AQAP?

    Answer. Radical ideologies, such as al Qaeda's jihadist belief 
system, can spread throughout humanity for any number of reasons. In 
the case of Yemen, as well as in several other countries, al Qaeda has 
taken advantage of the ravages of war to portray itself as a defender 
of the people. From this vantage point, al Qaeda provides Sunni tribes 
and people with a defense against their enemies, such as the Houthis. 
The entrance of the Arab-led coalition in 2016 has complicated this 
story. But al Qaeda's support has been bolstered over time for a number 
of other reasons. For example, as I noted in my written testimony, 
there is a network of schools and mosques that effectively serve AQAP's 
cause, indoctrinating people in its ideology and increasing the number 
of people who either support AQAP or outright join its ranks.

    Question. What else can be done to undermine AQAP's sources of 
domestic support?

    Answer. America has a limited capacity to deal with AQAP's sources 
of support so long as the political situation is as unstable as it is 
right now. Even when the U.S. had a somewhat stable partner government 
in power, that same government's reach was severely limited, as areas 
of Yemen have been ruled by local powerbrokers for years. Still, there 
are a number of steps the U.S. can take, or continue to take. First, 
the U.S. should work with its Arab allies to reinstall President Hadi's 
government, or (more likely) broker some sort of power-sharing plan. I 
recognize that this is easier said than done. Second, America should 
identify any tribes or any tribal elements that seem disgruntled with 
al Qaeda's cause and work with its Arab allies to bolster and integrate 
them.

    Question. What are the primary obstacles to the resumption of 
constructive political negotiations, and what can the U.S. and our 
partners do to help surmount those obstacles and encourage constructive 
political negotiations?

    Answer. Right now, multiple parties want to rule and they have not 
shown any serious interest in sharing power. Former President Saleh and 
his family have sided with the Houthis because they want to be put back 
in power. This is not necessarily a natural alliance, given their past 
hostilities, and so diplomatic efforts should be made to separate Saleh 
from the Houthis and have his family rejoin the government in some 
capacity. This is definitely complicated, and I don't even know if it 
could work. But including Saleh and his family in any discussions will 
likely improve, even if only at the margins, the possibility of some 
sort of reconciliation deal being struck. The Houthis are a much 
stronger foe as long as they are allied with Saleh and his extensive 
network.

    Question. What is the U.S. not doing that we should in order to 
encourage constructive political negotiations?

    Answer. To be frank, I'm not sure what the new administration's 
political policy is for Yemen and it will likely take some time for it 
to develop one. See above for my thinking on what might increase the 
possibility of a negotiated settlement.

    Question. The Washington Post reported recently that the State 
Department has approved a resumption of weapons sales to Saudi Arabia--
including precision guided munitions. Do you support that decision?

    Answer. The sale of precision guided munitions is acceptable so 
long as conditions are placed on their use, as well as on the use of 
other unguided munitions.

    Question. Should we attach any conditions on Saudi Arabia to these 
sales?

    Answer. Yes.

    Question. If so, what specifically should those conditions be?

    Answer. I think the U.S. should continue working with the Saudis to 
develop a list of militarily acceptable targets, and then ensure that 
U.S.-provided munitions are used against these targets alone. Also, the 
U.S. should specify that cluster munitions are not an acceptable weapon 
for use in civilian populated areas. In my written testimony, I noted 
that the Saudis have engaged and welcomed Sheikh Zindani, a key ally of 
AQAP. I think this relationship should be raised in a variety of 
contexts, perhaps even when discussing arms deals.

    Question. From the perspective of U.S. economic and national 
security interests, how important is the Bab al-Mandab Strait and how 
great of a threat do the Iranian-backed Houthis pose to the Strait 
going forward?

    Answer. The Bab al-Mandab Strait is, of course, a key waterway for 
international shipping, including oil, and essential for connecting 
countries on the Mediterranean to their trade partners in Asia. The 
Houthis have already claimed responsibility for a number of attacks 
against ships along this maritime trade route. While there is some 
debate over how much Iran has been involved in these attacks, Iran 
likely has an interest in raising the cost of operations for America 
and its allies in the Bab al-Mandab Strait. The Houthis will probably 
continue to take aim at shipping and military vessels, and it will be 
up to the U.S. to effectively counter these threats in the near future.

    Question. Working with our partners, do you agree that maintaining 
the freedom of navigation through the Mandab Strait is among our top 
priorities in the region?

    Answer. Yes, this should continue to be a top priority for the U.S. 
and its allies.

    Question. Do you agree that any attacks on U.S. military or 
commercial vessels in or near the Strait should be met with a very 
strong response to deter future attacks?

    Answer. Yes, America's response should be calculated to raise the 
cost of such attacks. The U.S. should seek means for deterring the 
possibility of both more frequent and more lethal operations targeting 
American and allied ships going forward.

    Question. Can you provide more details regarding the scale and 
character of the resources that AQAP receives from Gulf countries?

    Answer. AQAP has developed multiple revenue streams, including 
sources of funds that are both internal and external to Yemen. There is 
no good, publicly available documentation of its overall budget, or how 
much one line item accounts for in comparison to others. AQAP has 
earned revenues from: taxing shipments into the port of Mukalla (during 
the year it was under the group's control), taking a commission on 
transactions made in a banking network that handles funds throughout 
Yemen, extortion, robbery, ransoms and other means.
    However, there is ample evidence showing that donors throughout the 
Gulf contribute to AQAP, sometimes disguising their donations as 
charity. The best documentation for this has been provided by the U.S. 
Treasury Department, which regularly sanctions key AQAP personnel 
responsible for soliciting and disbursing such funds. See, for example:

        U.S. Department of the Treasury Press Center, ``Treasury 
        Designates Key Facilitators and Front Company Providing Support 
        to Al-Qa'ida in the Arabian Peninsula,'' December 7, 2016. 
        (https://www.treasury.gov/press-center/press-releases/Pages/
        jl0673.aspx)

        U.S. Department of the Treasury Press Center, ``Treasury 
        Designates Financial Supporters of al-Qaida in the Arabian 
        Peninsula,'' November 1, 2016. (https://www.treasury.gov/press-
        center/press-releases/Pages/jl0601.aspx)

        U.S. Department of the Treasury Press Center, ``Treasury 
        Designates Al-Qaida, Al-Nusrah Front, AQAP, And Isil 
        Fundraisers And Facilitators,'' May 19, 2016. (https://
        www.treasury.gov/press-center/press-releases/Pages/jl0462.aspx)

    Question. Are those Gulf sources of funding for AQAP private or 
governmental?

    Answer. My answer here deals more broadly with the al Qaeda network 
as a whole, as some sources of funds are likely shared by multiple al 
Qaeda parties. Some Gulf countries can turn a blind eye to al Qaeda's 
extensive fundraising. In some cases, these same countries may refuse 
to take serious action, or only partial action, even after being put on 
notice by the U.S. government. My colleague, David Weinberg, has 
described this pattern of behavior as ``negligence,'' which I think is 
accurate. See, for example, Mr. Weinberg's reports:

        Qatar and Terror Finance, Part I: Negligence, FDD Press, 
        December 2014. (https://www.defenddemocracy.org/content/
        uploads/publications/Qatar--Part--I.pdf)

        Qatar and Terror Finance, Part II: Private Funders of al-Qaeda 
        in Syria, FDD Press, January 2017. (http://
        www.defenddemocracy.org/media-hit/david-weinberg-qatar-and-
        terror-finance/)

        ``Analysis: Jund al Aqsa's deep Gulf roots,'' FDD's Long War 
        Journal, November 18, 2016. (http://www.longwarjournal.org/
        archives/2016/11/analysis-jund-al-aqsas-deep-gulf-roots.php)

    In addition, according to the New York Times, both Oman and Qatar 
acted as conduits for European governments that paid $20.4 million in 
ransoms to AQAP in 2012-2013. (See: Rukmini Callimachi, ``Paying 
Ransoms, Europe Bankrolls Qaeda Terror,'' The New York Times, July 29, 
2014.) Although this money originated with European governments, Gulf 
countries have made easier for AQAP to negotiate and extract ransoms. 
This policy is counterproductive, as both European and Gulf countries 
are creating an added incentive for AQAP and other al Qaeda branches to 
continue with their hostage-taking operations.

    Question. If governmental, which countries? Which Gulf Cooperation 
Council governments should do more to cut-off funding flows to AQAP? 
Specifically, what more should those governments do?

    Answer. See the answer above. I think both Qatar and Kuwait could 
do more to cut off terror financing. See: David Weinberg, ``Terror 
Financiers `Operating Openly' in Qatar and Kuwait,'' FDD Policy Brief, 
February 14, 2017. (http://www.defenddemocracy.org/media-hit/david-
weinberg-terror-financiers-operating-openly-in-qatar-and-kuwait/)

    Question. With respect to Ibrahim al Qosi, what has he done since 
being released from Guantanamo?

    Answer. Ibrahim al Qosi is a senior AQAP leader, and may be a 
senior manager in al Qaeda's global organization. He has been featured 
in several AQAP propaganda productions. Some of his commentary 
indicates that he is likely influencing decisions that are made far 
outside of Yemen as well. For example, he has commented on Al Qaeda in 
the Islamic Maghreb's activities in a way that suggests to me that he 
is involved in decision-making elsewhere. Nasir al Wuhayshi (killed in 
2015) served as both AQAP's leader and also as al Qaeda's deputy emir. 
This gave him power across al Qaeda's network. While Qosi is not as 
powerful as Wuhayshi was, I suspect he is playing a role in al Qaeda's 
global management.

    Question. How should his case inform future decisions regarding the 
value of law of war detention for foreign terrorists that we capture?

    Answer. While the U.S. needs to be able to detain some jihadis 
under the law of war, I think others can and should be prosecuted in 
federal courts. The military commission system has proven to be 
incapable, due to legal challenges and for other reasons, of 
prosecuting and jailing known al Qaeda operatives. Qosi received a 
favorable plea deal in the military commission system. I think he could 
have been successfully tried and imprisoned inside the U.S. That would 
have been preferable to him rejoining al Qaeda at its senior levels not 
long after his transfer. This is not to say that law of war detention 
is inappropriate or unwarranted. But the U.S. needs to devise a stable 
system to ensure that known al Qaeda figures such as Qosi don't walk, 
even as lesser al Qaeda members receive long prison sentences from U.S. 
courts.
                                 ______
                                 

               Responses of Thomas Joscelyn to Questions 
                   Submitted by Senator Jeff Merkley

    Question. On March 8, Amnesty International released fresh 
documentation that the Saudi-led Coalition employed cluster munitions 
in a February 15th attack on a residential area of Sa'da city. Two 
civilians were injured in the attack. Is there a legitimate military 
purpose for the Saudi-led Coalition to employ cluster munitions in a 
civilian-populated urban area?

    Answer. According to Amnesty International, cluster munitions have 
been used far away from legitimate military targets.\1\ Assuming that 
is accurate, then I don't think there is a ``legitimate military 
purpose'' for their use in those cases.
    According to a 2008 policy statement by the Defense Department, 
cluster munitions can, in some cases, ``reduce unintended harm to 
civilians during combat, by producing less collateral damage to 
civilians and civilian infrastructure than unitary weapons.'' \2\ The 
Defense Department went on to argue that ``future adversaries'' could 
use ``civilian shields for military targets'' by, for instance, 
``locating a military target on the roof of an occupied building.'' \3\ 
In such cases, according to the Pentagon, the ``use of unitary weapons 
could result in more civilian casualties and damage than cluster 
munitions.'' \4\
    However, the examples provided by Amnesty International and others 
are not consistent with the scenario outlined by the Defense Department 
in 2008.

    Question. Is the use of cluster munitions in civilian-populated 
areas consistent with Saudi Arabia's obligations under international 
humanitarian law even when the military target is legitimate?

    Answer. I have not performed a legal analysis of Saudi Arabia's use 
of these weapons, or its obligations under international humanitarian 
law.

    Question. Do you believe the United States should continue to 
prohibit the sale of cluster munitions to Saudi Arabia?

    Answer. Yes. I think the U.S. should prohibit the sale of cluster 
munitions to Saudi Arabia. And I think the U.S. should use whatever 
diplomatic leverage it has, including during negotiations for the sale 
of guided munitions, to pressure Saudi Arabia into abandoning its use 
of cluster munitions.

    Question. Ambassador Feierstein stated in his testimony that U.N. 
Security Council Resolution 2216 remains the basis for a resolution of 
the political conflict in Yemen. The terms outlined in the resolution 
are unacceptable to the Houthis, however, which would seemingly 
preclude the resolution from serving as the basis of a negotiated 
solution.
    Is Resolution 2216 still a realistic and helpful foundation for 
pursuing a political solution to the conflict in Yemen?

    Answer. My understanding, based on press reports, is that both the 
Houthis and former President Saleh have rejected Resolution 2216 as the 
basis for a political solution. Therefore, I don't think it is 
realistic, at this point, to expect the conflict to be resolved under 
that framework.

    Question. Would the United States benefit from leading an effort at 
the U.N. Security Council to pass a resolution that would create a new 
template for peace?

    Answer. Yes. I think the U.S. should play an active role in 
crafting a framework for an eventual political resolution, even if that 
looks to be far in the future at the moment.

    Question. If so, what would that template look like?

    Answer. As I testified during the hearing, I don't think any 
resolution that excludes former President Saleh, his family and his 
substantial network of supporters will succeed. Saleh and his 
supporters have undoubtedly fueled the violence in Yemen and are 
problematic for many reasons. However, I don't think Saleh and his 
family are going away. Diplomatic efforts should be made to split Saleh 
from the Houthis, as the two are not natural allies. I recognize that 
this is easier said than done, however, and even though the Houthis and 
Saleh are not natural allies, they are allies.

    Question. The front lines in Yemen have stagnated along lines that 
resemble the old border between the Yemen Arab Republic and the 
People's Democratic Republic of Yemen. In your testimonies, some of you 
mentioned the importance of Yemen remaining a unified, solitary state.
    Could you please explain the benefits of a unified Yemen in greater 
detail?

    Answer. In an ideal world, Yemen would have a strong central 
government capable of representing the Yemeni people as a whole. This 
government would be capable, for example, of limiting Al Qaeda in the 
Arabian Peninsula's (AQAP) ability to pursue its long-term state-
building project, especially in the southern part of the country. But 
that is a fantasy at this point. Yemen is not currently unified, but 
instead split between competing power bases.

    Question. How would a de-facto partition, if agreed to by the 
parties, by disadvantageous for U.S. interests?

    Answer. I think there is already a de facto partition of Yemen. 
AQAP is capable of seizing and controlling territory in the south at 
any time. The Houthis and President Hadi's government have bases of 
support elsewhere. The question is: can a political resolution be 
crafted that is satisfactory for each of the competing powers, and 
which also limits AQAP's objectives? At this point, I don't think that 
is in reach. The reality, on the ground, is that the U.S. is allied 
with only one of the three main actors (President Hadi's government, 
which is backed by the Saudi-led coalition) and the other two (Houthis, 
AQAP) are opposed to the U.S. and American interests.

    Question. The situation in Yemen is extraordinarily complex. The 
Administration is reportedly increasing the number of U.S. airstrikes 
against AQAP, but to date has not articulated an approach to the 
broader conflict in Yemen. Mr. Joscelyn in his written testimony stated 
that the reported increase in U.S. airstrikes is designed primarily to 
weaken AQAP's guerilla army, which presumably is distinct as opposed to 
AQAP operatives who are actively plotting against the United States.
    In your view, should the U.S. campaign against AQAP--especially 
AQAP elements that are not actively plotting external attacks--only be 
considered within a broader U.S. strategic framework for Yemen?

    Answer. I think it is very difficult to draw a firm line between 
the part of AQAP that is involved in insurgency operations and the part 
that threatens the West. The leadership of AQAP is certainly overseeing 
both. And we've documented a number of cases in which AQAP personnel 
wear dual hats, having a hand in external attacks while also taking 
part in al Qaeda's war inside Yemen. Also, as AQAP's insurgency gains 
ground, this necessarily creates more operating space for the group to 
build training camps and other facilities that can be used in anti-
Western and anti-American plotting.
    All of that said, AQAP's insurgency is a direct function of Yemen's 
broken political dynamics and the multi-sided war being waged, among 
other factors. I don't think policymakers can or should treat AQAP's 
insurgency as a separate phenomenon. Therefore, AQAP's role in Yemen, 
and the U.S. campaign against AQAP, should be ``considered within a 
broader U.S. strategic framework.''

    Question. Is it helpful for the Administration to intensify strikes 
against rank and file AQAP fighters before developing a broader 
strategic framework in which to address the conflict?

    Answer. AQAP's guerrilla army has grown substantially since 2009, 
but most of America's efforts between 2009 and early 2017 were focused 
on known al Qaeda veterans and leaders, as well as jihadists thought to 
be directly involved in planning anti-American, anti-Western terror 
attacks. But as I argued above, AQAP's insurgency and its ability to 
threaten the West are inextricably linked. Part of the reason AQAP and 
al Qaeda in general have been able to regenerate their external 
operations arm is that they have replenished this part of their 
operations with talent from their expanding insurgencies. So, I think 
the U.S. has been forced to take a more active role in fighting AQAP's 
guerrilla army.
    But I do agree that a ``broader strategic framework,'' which 
includes robust diplomatic efforts, is needed and that airstrikes alone 
will not solve the problem.

    Question. Ambassador Feierstein stated in his written testimony 
that ``Perhaps the greatest, and most unanticipated, benefit of the 
conflict to Iran has been the strain it has placed on Saudi Arabia's 
relationships with its key western partners, principally the U.S. and 
the UK.'' Dr. Rand, in her written testimony, described U.S. influence 
on the Saudi-led coalition as ``uneven.''
    How do we best support our Saudi partners, and avoid emboldening 
Iran, while still expressing our concerns with some of the ways in 
which the Saudi-led Coalition has conducted its military operations 
during this conflict?

    Answer. The Trump administration is reportedly considering a plan 
to support an effort by the Saudi-led coalition to seize the port of 
Hodeidah, which is a major hub for humanitarian assistance and other 
goods flowing throughout Yemen. The Trump administration should tie any 
assistance--intelligence, additional guided munitions, etc.--to 
stringent conditions on how the Saudi-led coalition proceeds in 
Hodeidah and elsewhere. I recognize that this will require great 
effort, but it also underscores why strong diplomacy is needed in such 
matters, not just military assistance.

    Question. If, as Dr. Rand suggests, our influence over our Saudi 
partners ``uneven,'' how can we best influence Saudi Arabia to address 
the concerning aspects of its military campaign?

    Answer. I agree that America's ability to influence Saudi Arabia's 
actions is ``uneven.'' I think that the best change for increasing 
American leverage is by tying any additional support for the Saudi-led 
coalition to specific conditions. This will require holding the Saudis 
accountable if they do not abide by these conditions, which is, again, 
easier said than done.

----------------
Notes

    \1\ For example, Amnesty reported one such attack took place 
``approximately 10km'' from the ``nearest military objective,'' which 
had been targeted by airstrikes on at least five different occasions 
since the start of the Saudi Arabia-led bombardment campaign in March. 
Amnesty International, ``Yemen: Brazilian cluster munitions suspected 
in Saudi Arabia-led coalition attack,'' October 30, 2015. (https://
www.amnesty.org/en/latest/news/2015/10/yemen-brazilian-cluster-
munitions-suspected-in-saudi-arabia-led-coalition-attack/) See also: 
Amnesty International, ``Yemen: Saudi Arabia-led coalition uses banned 
Brazilian cluster munitions on residential areas,'' March 9, 2017. 
(https://www.amnesty.org/en/latest/news/2017/03/yemen-saudi-arabia-led-
coalition-uses-banned-brazilian-cluster-munitions-on-residential-areas/
)
    \2\ U.S. Department of Defense, ``Cluster Munitions Policy 
Released,'' July 9, 2008. 
(http://archive.defense.gov/releases/release.aspx?releaseid=12049)
    \3\ Ibid.
    \4\ Ibid.

                                  <all>
</pre></body></html>
